<html>
<title> - BRIDGES TO THE CUBAN PEOPLE ACT OF 2001, S. 1017</title>
<body><pre>[Senate Hearing 107-741]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-741
 
            BRIDGES TO THE CUBAN PEOPLE ACT OF 2001, S. 1017
=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON WESTERN HEMISPHERE,
                   PEACE CORPS AND NARCOTICS AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 19, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/                                 senate







                       U. S. GOVERNMENT PRINTING OFFICE
82-470                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

               SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE
                      CORPS AND NARCOTICS AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman
BILL NELSON, Florida                 LINCOLN D. CHAFEE, Rhode Island
JOHN F. KERRY, Massachusetts         JESSE HELMS, North Carolina
RUSSELL D. FEINGOLD, Wisconsin       MICHAEL B. ENZI, Wyoming
JOSEPH R. BIDEN, Jr., Delaware       RICHARD G. LUGAR, Indiana

                                  (ii)











                            C O N T E N T S

                              ----------                              
                                                                   Page

Aronson, Hon. Bernard W., former Assistant Secretary of State for 
  Inter-American Affairs; co-chair of the Council on Foreign 
  Relations Independent Task Force on Cuba, managing partner, 
  ACON Investments LLC, Washington, DC...........................     9
    Prepared statement...........................................    14
Bridges, Kenneth R., M.D., director, Joint Center for Sickle Cell 
  and Thalassemic Disorders, Brigham and Women's Hospital, 
  Boston, MA.....................................................    32
    Prepared statement...........................................    33
Chang, Nancy, senior litigation attorney, Center for 
  Constitutional Rights, New York City, NY.......................    46
    Prepared statement...........................................    49
Colas, Ramon Humberto, former co-founder of Independent Libraries 
  in Cuba, Miami, FL.............................................    55
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement submitted for the record.............................    60
Leshner, Alan I., Ph.D., chief executive officer, American 
  Association for the Advancement of Science, Washington, DC.....    25
    Prepared statement...........................................    26
Morton, Donald L., M.D., medical director and surgeon-in-chief, 
  John Wayne Cancer Institute, Santa Monica, CA..................    28
    Prepared statement...........................................    30
Rasenick, Dr. Mark M., professor of physiology and biophysics, 
  and professor of psychiatry; director, biomedical neuroscience 
  training program, University of Illinois Chicago, College of 
  Medicine, Chicago, IL..........................................    35
    Prepared statement...........................................    37

                                 (iii)












            BRIDGES TO THE CUBAN PEOPLE ACT OF 2001, S. 1017

                              ----------                              


                        WEDNESDAY, JUNE 19, 2002

                           U.S. Senate,    
        Subcommittee on Western Hemisphere,
                 Peace Corps and Narcotics Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:45 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
J. Dodd (chairman of the subcommittee), presiding.
    Present: Senators Dodd, Bill Nelson, Chafee and Allen.
    Senator Dodd. The hearing will come to order. My apologies 
to our witnesses. We had a vote that delayed us getting started 
here.
    I want to thank my colleagues for coming. I want to thank 
the ranking member of this subcommittee, Senator Chafee, who 
has a strong interest in the Americas, and in a very brief 
amount of time has become a tremendous asset to this committee 
and a tremendous asset to the subject matter and discussion of 
the events in the Americas, as well as my new friend from 
Virginia, former Governor and now a colleague who has showed a 
wonderful interest in the Americas as well. We welcome them 
immensely.
    Senator Nelson will be here with us shortly. And we welcome 
you, Bernie; nice to have you back before the subcommittee. 
We've been friends for many years and I have a high regard and 
respect for Bernie Aronson. And I am anxious to hear your 
thoughts in a few minutes.
    Let me share if I can some opening comments. I will turn to 
my colleague, Senator Chafee after that for any opening 
comments he may have. Senator Allen, if you would like to make 
some comments before we go that way and we'll hear from our 
witnesses and move along. But I'm very grateful to all of you 
for being here.
    Today the Subcommittee on Western Hemisphere, Peace Corps 
and Narcotics Affairs continues its series of hearings on U.S. 
policy in the Western Hemisphere. And subject to today's 
hearing is the U.S.-Cuban policy and how that policy might be 
reshaped to better serve the interests of the United States.
    It is very clear that there is a growing support in the 
U.S. Congress for making some changes in U.S. policy. Since 
1999, numerous votes have occurred in support of lifting 
restrictions on travel to Cuba and on the sale of food and 
medicines.
    Each time the House leadership has stepped in to thwart the 
will of the Congress by stripping the provisions in the various 
bills in conference, in some cases over the objection of the 
conferees themselves.
    Despite the House leadership's best efforts, they have 
backed off efforts to remove a provision of the fiscal year 
2001 Agricultural appropriations bill that contained language 
authorizing the issuance of 1-year licenses for the sale of 
food and medicines to Cuba but were successful in placing 
restrictions on the financing of those sales.
    Whatever the shortcomings of the provision that passed, it 
was an important first step, I believe, that hopefully has 
broken the congressional stranglehold on U.S. policy.
    So what are the next steps. Last year in an effort to build 
on congressional actions on the food and medicine issues and to 
move forward to bridge the divide between the United States and 
Cuba, I introduced legislation that would comprehensively 
modify existing U.S.-Cuban policy.
    Each piece of the proposal is intended to try and foster 
some greater understanding between the American and Cuban 
peoples themselves and show by example what it means to live in 
a free society. This legislation was the focus of today's 
hearing.
    The bill I think is amply titled the ``Bridges to the Cuban 
People Act.'' I have been joined in this bill by 26 of our 
colleagues including Senator Chafee, the ranking member of this 
subcommittee. I am very grateful to Senator Chafee and other 
members of the committee who have joined us here this afternoon 
to talk about this subject matter, and to those who have joined 
with us in co-sponsoring this bill to restore some of what we 
believe is common sense policy toward Cuba, and to bring that 
policy to the line where the American people are on the 
subject.
    Our bill as proposed would increase humanitarian trade 
between Cuba and the United States, support people-to-people 
contacts by providing scholarships and loosening travel 
restrictions. It would also allow Americans to benefit from the 
medical advances in Cuba, remove caps on the amounts of money 
that Cuban-Americans can send back to their loved ones, their 
families, on an annual basis, and enhance the President's 
flexibility to make further calibrations in U.S. policy as he 
might decide.
    Let me tell you what it does not do. It does not eliminate 
its entirety of U.S. embargo against Cuba. And while I 
personally believe that such a profound change in our policy 
would greatly accelerate Cuba's peaceful transition to 
democracy, I know at this juncture that a number of our 
colleagues are not prepared to sign onto such a dramatic change 
in our policy.
    Rather, this bill creates specific exceptions to the 
embargo that will among other things allow American farmers and 
businesses to sell food, medicine and agricultural equipment to 
Cuba without the burden of securing annual licenses, and will 
allow our farmers and businesses to use American banks and 
American financing to conduct these sales.
    Both of these changes along with the lifting of shipping 
restrictions are designed to allow sales to move forward in a 
way that is less burdensome to American farmers and industry. 
We are fortunate to have with us this afternoon the former 
Assistant Secretary of State for the Western Hemisphere, Bernie 
Aronson, to share with the committee his views on the 
legislation and on the U.S.-Cuba policy in general.
    Bernie Aronson is extremely well-qualified to do so not 
only because of his previous government service but also 
because since 1998 he has been the co-chair of the Council on 
Foreign Relations Task Force on Cuba reviewing this issue and 
debating it with a broad cross-section of Cuban experts. And I 
thank you, Bernie, for being here this afternoon.
    Much of the debate on U.S.-Cuban policy is centered around 
whether our policy is achieving its objective of bringing 
democracy to Cuba or whether it is needlessly causing suffering 
to the 11 million people living on the island of Cuba. Those 
are very important questions.
    But the most important question in my opinion is whether it 
is serving the American people's interests. Is it really in our 
Nation's interest to deny the American people access to 
promising Cuban medical advances and data that could save 
American lives and improve the delivery of public health 
services, particularly in rural communities?
    I do not believe that it is. That is why I have included in 
the bill language that modernizes our approach to Cuba's 
medical exports. Cuba is currently involved in the development 
of some medicines that are not available in the United States 
such as the meningitis B vaccine, certain kinds of anti-cancer 
vaccines and other products that literally could save American 
lives today, some of which we will hear about this afternoon 
from our other witnesses in panel two.
    Our legislation would allow Cuba with the approval of the 
Secretary of Health and Human Services to export to the United 
States medicines for which there is a medical need in the 
United States, provided the medicine is not currently being 
manufactured in our own country. In this way, we can begin to 
build on the strong tradition of medical research in Cuba and 
to encourage the free exchange of ideas and experiments between 
scholars.
    Several weeks ago we heard from the administration 
witnesses that testified that because Cuba has a highly 
sophisticated biomedical industry, it has the potential, let me 
repeat, the potential to produce biological products that may 
have dual-use capabilities. At no time during that hearing did 
these witnesses state that they had any evidence that Cuba has 
manufactured biological weapons. Much of what was said in both 
open and closed session was highly speculative.
    By contrast today, we are fortunate to have with us a 
distinguished panel of medical and scientific experts who will 
speak knowledgeably about what Cuba's biomedical industry is 
doing. They will also discuss the implications of current 
prohibitions on cooperation in the biomedical sector, and the 
benefits that would accrue to the United States from closer 
collaboration between the United States and Cuban scientific 
and medical communities.
    Our panelists, Dr. Ken Bridges who is the director of the 
Joint Center of Sickle Cell and Thalassemic Disorders at the 
Brigham and Women's Hospital in Boston, Massachusetts; Dr. Alan 
I. Leshner, chief executive officer of the American Association 
for the Advancement of Science, here in Washington, DC; Dr. 
Donald L. Morton who is the medical director and surgeon-in-
chief of the John Wayne Cancer Institute in Santa Monica, 
California; and Dr. Mark M. Rasenick who is the professor of 
physiology and biophysics, professor of psychiatry and director 
of biomedical neuroscience training programs at the University 
of Illinois Chicago, Chicago College of Medicine, Chicago, 
Illinois. And gentlemen, all of you, we thank you for being 
here. And we'll introduce you in a few minutes.
    Another major focus of today's hearing which is also 
addressed in the bill is a matter that is adversely affecting 
the lives of average Americans, namely abridgments to their 
rights to travel.
    Cuba does not pose a threat to individual Americans. It is 
time to permit our citizens to exercise their constitutional 
right to travel, in my view, to Cuba. No one seriously argues 
that we ban travel to Cuba out of concern for the safety of 
Americans who might visit the island nation.
    Today Americans are free to travel to such countries as 
Iran, North Korea, founding members of President Bush's ``axis 
of evil'' club, I might add, they can travel as well to the 
Sudan, Burma, Syria, Afghanistan but not to Cuba, 90 miles off 
the coast of Florida.
    This afternoon we will hear from Ms. Nancy Chang for the 
Center of Constitutional Rights about how these travel 
restrictions are making criminals of ordinary Americans, how 
our citizens are being intimidated by Customs and Treasury 
officials, simply because they have sought to visit Cuba.
    Ironically, it is those Americans who respond truthfully to 
questions by Customs officials about their visits to Cuba who 
are the ones being subjected to pre-penalties and other forms 
of intimidation.
    More than 400 individuals have recently been targeted by 
the Office of Foreign Asset Controls for enforcement action, 
that is civil penalties ranging from $7,500 to $17,500. I 
thought it was the Castro regime it was trying to punish, not 
American students, artists and Cuban-Americans visiting loved 
ones on the island of Cuba.
    We Americans have a unique way of spreading our influence. 
It is by being ourselves. Look at the current visit to Cuba by 
former President Jimmy Carter. Although it was less than a week 
long, he was able touch the lives of millions of Cubans.
    He was able to bring news to them about what is happening 
inside their own country. That was remarkable. And so much more 
like that is possible in my view with further contacts. It has 
been through person-to-person and cultural exchanges that we 
have helped to shape the evolution of our hemisphere from one 
rule, predominantly by authoritarian and military regimes, to 
one where democracy is the rule.
    Our current policy toward Cuba limits our ability, in my 
view, to spread our influence. It removes our most potent 
weapon in our effort to combat totalitarianism, and that is our 
own people. They are sometimes the best ambassadors of our 
Nation. They are the ones who can make a difference as they 
have in many, many occasions all across the globe.
    And it has been possible to engage in the free exchange of 
ideas between Americans and Cubans is I think one of the best 
ways to encourage democracy and to build the bridges between 
the American and Cuban people.
    The bill before us would unleash America's goodwill 
ambassadors by removing restrictions on travel to Cuba. It is 
my hope that today's hearing will shed some light on the damage 
that our current policy is doing to U.S. interests and provoke 
some thought and debate on some alternative approaches to 
achieving our shared goals of seeing a peaceful and democratic 
Cuba, 90 miles from our shore.
    We all agree that the present government is one we want to 
change. The question is how do you do that. How do you build 
the transitions to a new Cuba that will come. Again, I want to 
thank our witnesses today for being here. I look forward to 
their testimony and the questions in the period that will 
follow.
    Now, let me turn to my colleague from Rhode Island for any 
opening statements he wants to make. And then I will ask my 
colleagues and hear any brief comments they would like to make, 
and then we will get to the witnesses.
    Mr. Chafee.
    Mr. Chafee. Thank you, very much Mr. Chairman, for holding 
this hearing on this important and beautiful piece of real 
estate, located as you said, just 90 miles from our own border. 
I was fortunate enough to visit Cuba in January. And as I've 
said before, you can feel the change in the air.
    The reasons for this change probably involve a combination 
of the President softening as he gets into his 70s--as many 
human beings do--as well as the hard reality that the Soviet 
Union has broken up and no longer provide Cuba $4\1/2\ billion 
of aid a year.
    So they are having to open their borders. And you are 
seeing people from around the world in Havana. You are seeing 
Canadians, Swiss, Spaniards and other Europeans. There are also 
other North Americans and South Americans in Havana.
    Cuba is changing. The United States must decide whether we 
are going to welcome these opening of doors or whether we are 
going to be reactionary and not do what's in our own best 
interest by taking advantage of the opportunities that are 
coming our way. So I look forward to hearing from today's 
witnesses.
    Senator Dodd. Very good. Senator Nelson, any opening 
comments you would like to make?
    Senator Nelson. Mr. Chairman, I think because the winds of 
change are blowing in Cuba and that an examination of this 
issue in this hearing is a very constructive one, just as you 
were so kind to me a week ago in bringing to the attention of 
the full committee here my resolution of support for the Varela 
Project.
    Here's a project that was not known too much outside of 
Cuba until President Carter spoke about it in his address to 
the Cuban people. And here are over 11,000 very courageous 
citizens that dared to put their name and address under the 
legal processes of the Cuban Constitution that says that if 
10,000 petition the government, the issue goes to the National 
Assembly.
    And this was a petition on the things that we take for 
granted here, that we want so desperately for Cuba to have: 
free and fair elections, the freeing of political prisoners, 
the opportunity for a free-market economy to operate instead of 
a state-controlled economy.
    Those are examples of the freedoms that were articulated by 
these courageous 11,000 souls, only to see that the Castro 
government's response was to have a mass demonstration against 
that project. And that is just simply not constructive. And yet 
I'm grateful to you for having brought up that Varela 
Resolution so the U.S. Senate could go on record as we did, 87 
to 0, to clearly state that we yearn for the freedoms.
    So I think coming out of this hearing can be a lot of 
constructive comments. You know that my politics is a little 
bit different because I have a large Cuban-exiled community 
that has experienced this traumatic experience of so many of 
their loved ones having been jailed and tortured and then 
having to pick up roots and flee, often with nothing but the 
clothes on their back. And so I have my concerns about dealing 
with this government.
    But nevertheless, the issues that you have put forth here 
are legitimate issues that we should discuss and come to some 
conclusions.
    This legislation also removes restrictions with regard to 
vessels entering U.S. ports. And of course one of the things 
that I hope will come out in this discussion is particularly at 
this time of risk to our homeland, and given the fact that one 
of the points of vulnerability are our deep water ports, and 
Florida by the way has 14 of them, and the fact that Cuba is 
still listed as a state sponsor of terrorism, what are the 
thoughts that should come forth in the testimony on whether or 
not that increases the risk to our safety here at home.
    So I look forward to this, Mr. Chairman, and thank you 
again for your leadership.
    Senator Dodd. Thank you. I want to commend my colleague 
from Florida for his resolution on the Varela Project. And I 
was happy to see to it that it was considered here and 
considered on the floor of the Senate and too co-sponsored in 
support of the resolution.
    It is not inconsistent at all with the United States here. 
I think it is a common goal, common desire here to make sure 
people have the rights that they ought to have in a free 
society. And there may be some division over how best we can 
achieve these goals, but no one disagrees I hope over what our 
goals are. So I appreciate your comments.
    With regard to the ships coming in, of course, it is common 
knowledge that we only inspect less than 2 percent of the 
vessels that come into our country. And certainly that needs to 
change dramatically. Just a fraction of these container vessels 
are examined.
    So I would anticipate that any ships coming here would be 
subjected to the same kind of scrutiny we anticipate elsewhere. 
And I look forward to that.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. And thank you for 
continuing this discussion. I associate myself with the remarks 
of Senator Nelson and commend you for having this hearing. And 
clearly I think we all want to get to the same goal. The 
question is how do you get to that goal for the people of Cuba.
    Senator Nelson deserves a lot of credit and so does the 
United States Senate for the unanimous vote standing by the 
side of others in support of the Varela Project. Now, what has 
been the response to this? I am going to go to the Washington 
Post today, which most would not consider a Jeffersonian 
conservative editorial page, but----
    Senator Dodd. You keep on picking on that paper.
    Senator Allen. I am not picking on the paper. I am going to 
vote for the paper with the free press. I will probably be 
blasted for using them as exhibit A in their articulation, and 
I quote, from today's paper, ``When feeling threatened, Fidel 
Castro has a stock response. Order the Cuban people to 
participate in a mass demonstration. It is an old technique of 
totalitarianism that offers the dual benefit of providing the 
outside world with an illusion of strength while reminding 
citizens that the state controls their lives to such an extent 
that it can force them to join such spectacles.''
    So something must have thrown a real scare into the 75-
year-old dictator, and I am quoting still; ``last week he 
orchestrated a forced march through the center of Havana and 
dozens of other towns that by official count rounded up eight 
million of Cuba's eleven million people.''
    Then he forced the country's voting population to line up 
again beginning last week to sign a petition that calls for his 
failed Soviet-style economic and political system to be 
enshrined as untouchable in the national constitution. 
Naturally, Mr. Castro said he only was responding to 
provocation from the United States, the excuse for most 
everything he does.
    President Bush recently delivered a speech calling for 
democracy and Cuban reform and support for U.S. economic 
embargos, I will not read the whole thing but that is the 
point. That is the response to the Varela Project.
    Now, the issue here is how do we respond in a way to take 
into consideration first our concern for the people of Cuba and 
actually make sure we are not increasing their suffering by 
inadvertently perpetuating the power of the group that is 
really the cause of their pain. I do not think there is any 
question whatsoever that we agree there.
    Now, we have witnesses, esteemed witnesses who I know are 
all very well-meaning, as is the chairman, but I think for 
example, we ought to understand that while we have a natural 
instinct to believe that unrestricted travel can help promote 
freedom, sadly this has not proven to be the case with Cuba, in 
that as Senator Chafee mentioned, all the countries from 
Europe, from South America, from Canada and others who visit 
Cuba has not had any appreciable beneficial impact on the 
freedoms of the people of Cuba.
    And as far as our travel, the so-called travel ban, family 
members are allowed to travel annually to Cuba, as are 
academics, there are cultural exchanges and sports and music 
allowed, so are relief organizations and the media. I think 
that those who advocate travel to Cuba would probably have more 
sympathetic argument or may be more persuasive if Castro would 
allow their citizens, the people of Cuba, to travel as freely 
as our in-born Latin nations.
    Today in Cuba the vast majority of their citizens are 
barred from entering these tourist hotels and resorts, a 
practice that is called tourist apartheid. It is a crime for a 
Cuban citizen to criticize the Castro regime to a foreigner, 
punishable, and this is on the books, punishable by up to 3 
years in prison.
    The people who work at these tourist resorts get their jobs 
through loyalty to the Communist Party and still have a lot of 
their wages taken by the regime. And of course the dollars that 
might come from Canada or Euros or other hard currency are paid 
to them in devalued Cuban pesos.
    It also appears that black Cubans are discriminated against 
in the tourist industry, and are grossly under represented in 
the senior ranks of the Communist Party, the military and the 
police. And I don't think many of us would agree that we ought 
to be patronizing hotels that discriminate against people based 
on their skin color.
    Now, many believe that there is a potential market for 
agricultural products. In recent months Cuba has bought, and 
because the U.S. law requires it, they have paid cash for a 
number of their purchases.
    The Castro regime has been able to do this because they 
have stopped making payments on the massive debts they owe to 
the Europeans and others. I could go into all of this, but they 
owe nearly $4 billion of debt to the so-called Paris Club of 
creditor nations. I don't think we should be putting the United 
States as a volunteer as a new source of credit.
    Now, if you want to look at the Castro regime and how they 
stifle all forms of economic or independent economic activity, 
there is an index, so-called Index of Economic Freedom put 
together in combination with apparently the Wall Street Journal 
and the Heritage Foundation. And they rank 158 countries, 
excuse me, 156 countries as far as their economic freedoms.
    The United States is tied for fourth. For everyone's 
interest, Hong Kong is No. 1, Singapore No. 2, New Zealand No. 
3, Estonia, Ireland, Luxembourg, The Netherlands, United States 
tied for fourth on various factors on economic freedom.
    Ranked number 145 is Syria, 147 Zimbabwe, 151 is Iran. Cuba 
is listed 153, 153 out of 156 countries as a place to do 
business in this year's Index of Economic Freedom. They beat 
out Libya, Iraq and North Korea. Cuba is clearly bankrupt.
    Senator Dodd. You can go to those other countries. You just 
can't go to this one.
    Senator Allen. Well, the reality is, is we do not have 
people investing in North Korea, Libya or Iraq either. A 
default to countries is one thing, but I would ask my 
colleagues to really conduct as we go forward here, simple due 
diligence, a review before getting too excited about the 
prospects in Cuba.
    And I do believe the President has a very constructive, 
positive plan. It is one that I think is a good outline as to 
where we need to be moving in this regard and facilitating 
several points. And there actually are some concurrences here. 
One is humanitarian----
    Senator Dodd. Wrap this up.
    Senator Allen [continuing]. Assistance to non-governmental 
groups. I think the idea of calling for a resumption of direct 
mail to and from Cuba is a good idea. It would cause no problem 
to us to see what Fidel Castro says. And also here is where 
there is a correlation, is the idea of providing or 
establishing scholarships in the United States for Cuban 
students. And I commend the chairman for including that in his 
measure.
    So I think that we need to stand with the opressed, not the 
oppressors. I think we need to take great care not to 
legitimize or perpetuate a system that gives neither food or 
freedom to the people of Cuba. Let us side with the Cuban 
people, not with the Castro regime. And in Spanish that would 
be ``Defendamos al pueblo Cubano y no al regimen del Fidel.''
    Thank you. Gracias, Mr. Chairman, Senor.
    Senator Dodd. Mr. Aronson.

 STATEMENT OF HON. BERNARD W. ARONSON, CO-CHAIR OF THE COUNCIL 
 ON FOREIGN RELATIONS INDEPENDENT TASK FORCE ON CUBA, MANAGING 
         PARTNER, ACON INVESTMENTS LLC, WASHINGTON, DC

    Mr. Aronson. Thank you very much, Mr. Chairman. I want to 
thank the committee for this opportunity to testify and thank 
the chairman for his kind personal words.
    I have many fond memories of many hearings in this very 
room. And I think we tackled some very tough problems in this 
hemisphere in those days. I think we made some progress in no 
small part due to your leadership.
    I've said this before but not in this forum, the beginning 
of that progress was the Bipartisan Accord on Central America 
which we negotiated in March 1989. On that platform we promoted 
the first democratic elections in Nicaragua, ended the war 
there and went on to support successful negotiations in El 
Salvador.
    That bipartisan accord which President Bush the first 
signed, really depended on leadership in this body. And, Mr. 
Chairman, I think your leadership and trust in us made a big 
difference in our ability to move forward. And I give you great 
credit for the outcome of that.
    I am glad to see this committee paying attention to Latin 
America. In my experience we get in trouble in this hemisphere 
not because we intervene too much, but because we do not pay 
attention enough, and we allow problems to grow and fester into 
crises. Then we try to jump in when the choices are very 
narrow.
    So I give you credit for that. I hope you will continue to 
pay attention to the hemisphere because I think there are deep 
problems today in many countries that you know of and care 
about from Colombia to Peru to Venezuela and Argentina.
    I, also, think we have a deep interest in this issue of 
Cuba. It troubles me that our debate is not more enlightened 
and constructive than it is. We get polarized very quickly. We 
question each other's motives very quickly.
    And I would like to try to frame the debate in a way that I 
hope would contribute more to a constructive dialog and then 
speak to the legislation that you have introduced. I will 
summarize my statement in the interest of time and introduce it 
in the record.
    One of the mantras that we hear about Cuba is that U.S. 
policy since 1959 has been a failure and therefore it has to be 
fundamentally changed. Advocates of the embargo say it has to 
be changed by tightening the embargo, and opponents say it has 
to be changed by doing away with the embargo.
    I would argue an alternative thesis. I think we probably 
made many mistakes in the last 50 odd years toward Cuba. There 
were missed opportunities on both sides. But by and large the 
policy we pursued toward Cuba was part of our security policy 
toward the Soviet Union. It was a policy of containment.
    It is easy to forget, sitting in this hearing room, that 
there was a time a few decades ago when it was an open question 
whether the future of Latin America would follow the Cuban 
model led by Che Guevara and guerrillas all across this 
hemisphere or it would follow the democratic model.
    Today we look out and the hemisphere is led by 34 
democratically elected leaders. Ours is the only regional body 
in the world, the OAS, that is committed to defend democracy. 
Democracy is the only legitimate form of government.
    Nobody argues that it is an open question, whether Cuba is 
the wave of the future, not even in Cuba, itself. So I think 
that rather than flagellate ourselves and demoralize ourselves 
about how our policy has failed, I think we should take some 
comfort and confidence from the fact that this fight for the 
democratic ideal and for the open market ideal has been won.
    That does not mean that there are not deep problems with 
democracy in Latin America. There are. It is under siege. It is 
threatened. It is imperfect. But nobody believes that the 
future belongs to Fidel Castro style socialism.
    So I think what we should say is that the broad policy of 
containment was successful. Now, we are in a new post-cold war 
era and we must ask ourselves what are the appropriate tools 
the United States should bring to bear. I think as we listen to 
the debate in the subcommittee, there is also common ground.
    I think we share a goal of speeding a rapid transition to 
democracy in Cuba, and I would add a peaceful transition to 
democracy in Cuba. So the question is how do we design U.S. 
policy to accomplish that goal.
    This is an old debate in foreign policy that we have around 
the world. We have it about Iran. We have it about China. We 
have it about North Korea. We have it about Syria. And it will 
continue to recur: which is how do you influence a closed 
dictatorial state and society.
    Do you influence it by isolating it. Do you influence it by 
engaging it. And good people are on both sides of the debate in 
many instances.
    When this body debated permanent normal trade relations 
with China, for instance, those who advocated that step, which 
I supported, argued that having trade relations with China, 
having U.S. investment, having U.S. engagement over time would 
empower Chinese economically which would empower them 
ultimately to be independent of the state. It would force 
pressures for rule-based law to be established to codify 
property rights. And, over time, it would stimulate openings of 
political reform. And that is certainly the history we saw in 
Taiwan, in South Korea; and I would argue we also saw in 
Mexico.
    Many of those who advocate an opening to China advocate 
isolation of Cuba to achieve the same goal. But the converse is 
also true. When this body debated sanctions on South Africa, 
many of those who argued we should end sanctions toward Cuba 
argued that sanctions toward South Africa would be the best way 
to promote majority rule.
    I am not suggesting that there is a cookie cutter answer, 
because there is not. I am just trying to say these are 
judgment calls. And good people can differ. And we ought to 
have the debate on that basis. What is the best set of policy 
tools.
    Senator Nelson and others talked about the Varela Project. 
I am confident that Cuba cannot remain an island of 
dictatorship in a sea of democracy in this hemisphere. I do not 
think it can remain a closed statist economy in an integrated, 
global economic system.
    And I think the 11,000 courageous Cubans who signed the 
Varela Project represent the future of that country and not the 
Cubans who were forced through coercion and pressure and 
intimidation to sign whatever the state put in front of them. 
So I think we can approach this issue with some confidence.
    The second point I would make is that we sometimes talk 
ourselves into the notion that our policy toward Cuba has been 
fixed and static, and that is not the case either. There has 
been a shift since the end of the cold war, the collapse of the 
Soviet Union and the end of our security concerns toward more 
engagement with the island.
    For instance, telephone communications were established 
between Cuba and the United States as called for in the Cuban 
Democracy Act in 1992. And those are commercial relationships.
    We negotiated a new migration agreement in 1994 with Cuba 
which continues to be in effect. The Clinton administration, on 
the recommendation of the Task Force that the chairman referred 
to, started to license group travel to Cuba for scientific, 
cultural, education, religious, athletic and other people-to-
people exchanges.
    Charter travel was expanded between the United States and 
Cuba under the previous administration as well. And, as has 
been noted, the last Congress authorized sale of food and 
medical products, though there was a restriction on commercial 
credit through U.S. financial institutions.
    So, the legislation that you are considering seems to me an 
evolution in this same direction but not a radical departure 
from the direction that the Congress and the country has been 
going in. I think there is a consensus in the Congress and in 
the country that the United States should find ways to engage 
with and support and encourage Cuba's nascent civil society and 
fledgling private enterprises; that we should defend and assist 
Cuba's brave human rights and democratic advocates and their 
religious communities; that we should support humanitarian 
measures to reduce the suffering of the Cuban people and try to 
ease the plight of divided families across the Florida Straits.
    With regards to the specifics of the legislation before the 
subcommittee, I want to make a few comments and then take 
questions. I support the lifting of the remittances on Cuban-
Americans. I think the net beneficiaries of these remittances 
are struggling people who live under very, very dire 
circumstances.
    It allows them to take care of their families. And I think 
it gives them a measure of independence from the state. Having 
said that, I think in fairness we have to acknowledge that the 
same dollars that some would deny through tourism also go to 
the state, ultimately. They are spent in dollar stores.
    And that just illustrates the fact that these are not black 
and white issues. These are all tough choices. But I think we 
should lift that restriction. And I would argue, also, as the 
task force did that the committee should consider legislation 
that would allow Cuban-Americans to claim family members on the 
island as dependents under U.S. tax law if they meet the 
traditional qualifications that the IRS establish.
    I believe that Mexican-Americans and Canadian-Americans are 
afforded that privilege. I think that would also give Cuban-
American families some relief who have to sacrifice their own 
family's welfare to help their families on the island. I would 
urge the committee to take a look at that.
    With regard to the recommendations of the sale of food 
products and medicine, I think allowing U.S. financial 
institutions to participate in normal market terms is 
warranted. The prohibition basically just means Canadian banks 
or European banks will handle the financing as opposed to U.S. 
banks.
    I note that the bill also calls for a study by the 
Secretary of Agriculture of export promotion and credit 
programs with regard to Cuba. I think gathering data is always 
useful. Personally I would be wary at this stage of supplying 
credit enhancement to Cuba given both its own credit history 
and the effective subsidies that that would represent to the 
Cuban Government.
    With regard to the lifting the ban on travel, I think we 
need to note that the new licensing procedure has allowed tens 
of thousands, I think it is actually in the hundreds of 
thousands of Americans to visit. So again this is not a radical 
break in policy. It is an evolution that would allow all 
citizens to travel.
    The argument that Senator Allen made is a legitimate 
concern. It is something I share, that the Cuban Government 
hires the workers and then takes their wages in dollars and 
doles out about 10 or 20 percent in pesos. I think it is one of 
the tradeoffs in this issue.
    The same is true with remittances, however. One way the 
committee might address this in the interest of trying to 
broaden the consensus is to make this end of the travel ban 
contingent on some changes in those provisions that would allow 
the hotels involved to hire workers directly and pay them 
directly. Or you could allow both travel and investment in 
enterprises that hire workers directly and pay them directly. 
Or the committee could ask the administration to come back 18 
months after the travel ban was lifted to report on whether 
progress was made in those areas. And that is something the 
Congress could consider.
    Another area I would urge the subcommittee to also consider 
addressing is the question of resolution of U.S. expropriation 
claims which was the origin of the embargo. One of the lessons 
we learned in Nicaragua was that even after a democratic 
transition takes place, the legacy and the wreckage left behind 
by these regimes take years and decades to overcome.
    Nicaragua was held back and still is held back because 
investors are reluctant to invest when property claims are 
uncertain and they do not know where they are investing and who 
owns what and whether they will be subject to litigation.
    Our task force tried to propose one method of expediting 
resolution of claims by allowing claimants to take equity 
interest in existing enterprises in exchange for relinquishing 
their claims. There are probably many other ways to do this, 
but I think the Congress should set up a mechanism to begin to 
at least set up the modalities of this and maybe even begin to 
engage in it.
    Because when the day comes and we celebrate a democratic 
Cuba, that government is going to be faced with enormous 
economic problems. We would be doing the Cuban people a great 
service to get ahead of the curve on this issue rather than 
plague the successor government with the burden of dealing with 
those issues.
    I will say one final point and then in the interest of time 
I will take your questions, Mr. Chairman. I hope that we can 
debate Cuba and discuss Cuba without the kind of vilification 
of both sides that is too often the case. On the one hand you 
have the Cuban-American community which is a community I have 
deep respect for.
    I think the Cuban-American community is a ``made-in-
America'' success story. And these are brave, hard-working 
people who came to this country often with nothing, in one 
generation rebuilt Miami and became productive citizens.
    And the passions they feel for their country are passions 
we should understand. I think exile is always painful, but it 
is particularly painful when your motherland is 30 minutes 
away. Your family is trapped there. You cannot protect them. 
The freedoms that you enjoy in this country are denied your 
countrymen.
    And I think vilification of the Cuban-American community is 
a shameful practice that we hear in these debates. And I know 
this committee does not participate in it, but I think we hear 
it a lot.
    On the other side of the coin, we learned a lot of 
experience from watching communism collapse in Eastern Europe 
and the Soviet Union. And many good people believe that the way 
to undermine and erode the Cuban Government is to engage more, 
to have freedom-loving people and free people interact and to 
undermine the infrastructure of this regime.
    I think that their credentials and commitment to democracy 
shouldn't be questioned either as it often is. I thought 
President Carter's visit was a good metaphor for the tradeoffs. 
President Carter was permitted to do what he did because the 
Castro regime knew he would condemn the embargo.
    But what he did was unprecedented in Cuba, to speak to the 
Cuban people, to talk about their rights, not because the 
United States was talking about it because they were enshrined 
in the universal declaration of human rights to talk about the 
Varela Project, to have that printed in Granma.
    I think that is subversive. And I think freedom is 
subversive. So I think that was a good metaphor for the 
benefits of engagement.
    So I commend the committee for taking these steps. I hope 
we will continue this debate and this constructive tone. I 
think that the future of Cuba will be democracy. The question 
before the United States is whether we can get there in a 
speedy, peaceful way or whether we are going to have a 
prolonged, protracted and violent transition.
    I think we have deep interest between the two. And I think 
therefore a policy of gradual engagement as the committee is 
recommending, I made some caveats which I mentioned, but I 
think that that is a defensible position. And I think there is 
history in many other parts of the world to justify it. So 
thank you for the opportunity.
    [The prepared statement of Mr. Aronson follows:]

    Prepared Statement of Hon. Bernard W. Aronson, Former Assistant 
             Secretary of State for Inter-American Affairs

    Thank you for this opportunity to testify.
    I commend the Subcommittee for holding this hearing. In my 
experience, the United States gets in trouble far more often when it 
neglects Latin America then when it is involved. Today, there are 
serious problems in the region that cry out for attention from the 
United States--in Colombia, Peru, Venezuela, Argentina and others. 
Cuba, also, offers both opportunities and challenges. Important U.S. 
interests are at stake in how that island nation evolves politically 
and economically in the years to come. So this is a timely hearing, and 
I applaud the Subcommittee for taking this initiative. I would also 
like to enter in the record the first and the follow-on reports of the 
Independent Task Force on U.S. Cuban Relations in the 21st Century 
sponsored by the Council on Foreign Relations which former Assistant 
Secretary of State, William D. Rogers and I co-chaired.
    Although the future of Cuba is important to the United States, in 
my experience, our domestic debate too often sheds more heat on the 
subject then light. One reason I think our debate is not as productive 
as it could be is that it begins with a false premise and an 
unnecessary pessimism. One of the mantras we hear often in this debate 
is that U.S. policy towards Cuba since the 1959 Cuban revolution has 
been a complete failure. I believe in retrospect we have made mistakes, 
but broadly speaking I would argue that the opposite is true.
    U.S. foreign policy towards Cuba throughout the cold war period was 
driven by U.S. security concerns. We sought to contain Cuban 
expansionism as part of a larger policy of containment directed towards 
the Soviet Union and its allies. In the original article written by 
George F. Kennan in Foreign Affairs in 1947, which enunciated what came 
to be the containment policy, Kennan argued that only after stopping 
the spread and expansionism of a totalitarian state like the Soviet 
Union could forces be unleashed that would subsequently bring about 
internal change. That thesis proved true about the Soviet Union. I 
would argue much the same is true about Cuba.
    It is easy to forget that if we were holding this hearing in the 
decade of the 1960's we would be debating the threat posed by Marxist-
Leninist guerrilla groups waging revolutionary war with active Cuban 
support in more then a dozen nations across this hemisphere. For many 
decades after Fidel Castro seized power it was an open question whether 
Latin America would follow the path of Cuba and succumb to communist 
revolutions. Today, when we look out upon the western hemisphere we see 
34 nations led by democratically elected leaders.
    Though remnants of those guerrilla groups still exist in Peru and 
Colombia and post a serious security threat, they are hardly the 
vanguard of Latin America's future anymore. In this hemisphere 
democracy is considered to be the only legitimate form of government, 
and the OAS--through the Santiago Resolution and the newly enacted 
Democratic Charter--is the only regional organization in the world 
committed to the collective defense of democracy in every member state.
    I don't want to suggest that the state of democracy in Latin 
America today is healthy. It is deeply troubled and cries out for 
attention. But whatever pressures and problems and setbacks we 
confront, I believe that in this hemisphere the great battle of ideas 
waged between democracy and communism, between statist closed economies 
and the free market system is over. This hemisphere's future lies in a 
bold vision of democratic states united in free trade from Nova Scotia 
to Tierra del Fuego.
    Cuba remains the lone, glaring exception to this hemisphere's 
democratic tide. Cuba remains a one-party, repressive political 
dictatorship where elemental freedoms from the right of association and 
assembly, free speech, political pluralism, trade union and most 
property rights, the right to elect political leaders, due process--
none of these basic freedoms exist. Yet I also believe that the Cuban 
government has already lost the crucial battle for the allegiance of 
the next generation. Few in Cuba, particularly the young, believe that 
after Fidel Castro departs the scene, the current system can be 
maintained intact, unchanged for long. I think there is already a 
recognition among many in official positions that whatever brave 
rhetorical front they may present, Cuba cannot remain an island of 
dictatorship in a hemispheric democratic sea nor can it remain a 
closed, statist economic system in an increasingly open, integrated 
global economy.
    So rather then approach U.S. policy towards Cuba from a position of 
defeatism, we should instead approach Cuba with a strong sense of 
confidence. The question for U.S. policymakers is: looking beyond Fidel 
Castro: how do we create conditions that will speed Cuba's rapid, 
peaceful--and I believe ultimately inevitable--transition to democracy.
    What is at issue is an old and recurring question in foreign 
policy: do we influence a dictatorial, closed regime most effectively 
through isolation or engagement. We face this question in many other 
parts of the world: China, Iran, North Korea, and Syria, just to name a 
few. Good people find themselves on different sides of the debate 
depending on the circumstance.
    Consider the debate about Permanent Normal Trade Relations with 
China (PNTR). Advocates--and I am one of them--argued that opening 
trade and economic relations with China would over time create 
pressures for rule-based law, empower a new generation of Chinese 
citizens economically, and ultimately create internal pressures for 
democratic political reform. That was the evolution we witnessed in 
Taiwan, South Korea and I would argue also Mexico. It is the same 
justification for our opening towards Vietnam. But many who advocated 
such an opening towards China in the name of promoting democracy call 
for continued or even greater economic isolation of Cuba to achieve the 
same result. Conversely, many who argued that only strong economic 
sanctions would compel South Africa to embrace democratic majority rule 
argue with regards to Cuba that ending sanctions will help promote 
democracy.
    The point I am making is that these are judgment calls and rather 
then question each other's motives, the advocates of engagement and the 
advocates of isolation should instead debate how the policies they 
advocate will help speed the peaceful democratization of Cuba and avoid 
legitimizing and prolonging the life of Cuba's current dictatorship.
    I believe that during the cold war, when security concerns were 
paramount and Cuba was allied with the Soviet Union, a policy of 
isolation and denial of hard currency served U.S. interests. To put it 
simply, every dollar denied to Cuba was one less dollar used to buy an 
AK-47 for a Cuban allied guerrilla group in Latin America or build an 
airport runway in Cuba that could accommodate Soviet Backfire bombers. 
With the Soviet empire gone, and Cuba, whether through conviction or 
necessity, having renounced support for revolutionary violence we need 
to ask whether the policy should shift accordingly.
    Despite the conventional wisdom that our policy has been unmovable, 
there has already been a shift in direction in the last decade since 
the end of the Cold War. Telephone communication between Cuba and the 
United States was re-established as called for under the Cuba Democracy 
Act of 1992. A new understanding on migration was negotiated in 1994, 
which continues to be in effect. The Clinton Administration, on the 
recommendation of the Council on Foreign Relations Task Force, adopted 
a new policy of licensing group travel to Cuba for scientific, 
cultural, educational, religious, athletic, and other people to people 
exchanges. Charter travel was expanded between the United States and 
Cuba and remittances were increased. The last Congress authorized sale 
of food products to Cuba, though denying commercial credit through U.S. 
financial institutions.
    The legislation you are considering is a further evolution in this 
direction. In many ways it tracks the recommendations of the Task 
Forces which the Council on Foreign Relations convened, though in 
fairness to the members of the Task Force, there was far less consensus 
for the recommendation to allow individual travel.
    Still, I think there is a growing consensus in the Congress and in 
the country that the United States should find ways to engage, support, 
and encourage Cuba's nascent civil society and fledgling private 
enterprise, defend and assist Cuba's brave human rights and democratic 
advocates and religious communities, support humanitarian measures to 
reduce the suffering of the Cuban people, and ease the plight of 
divided Cuban and Cuban-America families across the Florida Straits.
    With regards to the specifics of the legislation before the 
Subcommittee let me make a few comments and then take any questions the 
members may entertain.
    I support the lifting of the current limit on remittances that 
Cuban Americans may send to their relatives on the island. I believe 
that this assistance reduces suffering of many Cubans and increases 
their independence from the State. I would urge the Subcommittee to 
also consider proposals made by the Task Force to allow Cuban Americans 
to claim for dependency status for tax purposes family members in Cuba 
who otherwise would meet IRS requirements. I understand that this 
provision currently applies to U.S. citizens with dependents in Mexico 
and Canada.
    With regards to the provision on sale of food products, I believe 
that allowing U.S. financial institutions to participate on normal 
market terms is warranted. I note the bill also calls for a study by 
the Secretary of Agriculture of export promotion and credit programs 
with regards to Cuba. While gathering data is always useful, personally 
I would be wary at this stage of supplying such credit enhancement to 
Cuba given both its own credit history and the effective subsidies this 
would represent for the Cuban government.
    With regards to the lifting of the ban on travel by U.S. citizens, 
I would note that with the change in licensing procedures by the U.S. 
Treasury, which allow group travel for designated purposes, tens of 
thousands of Americans, are already visiting Cuba. So this is a further 
evolution of a policy that has already begun to change. Opponents argue 
that such a policy largely benefits the government. They point out 
correctly that the Cuban government hires workers for tourist hotels 
and other facilities and that the foreign joint venture partners in 
these hotels pay the workers' wages to the Cuban government, 80 to 90% 
of which are retained by the government.
    These are legitimate concerns though I would note that they 
probably applied to the Soviet Union during the cold war period. There 
might be several possible ways to address this issue to build broader 
consensus. The lifting of the ban could be made contingent on changes 
in these hiring and payment policies. Alternatively, the Administration 
could be directed to report back to the Congress within 18 months to 
report on the net effect of the lifting of the ban, including any 
progress in changing these provisions on hiring and payment of workers 
that the Congress might want to take into account. Or a broader 
provision could be enacted that would permit not only travel by U.S. 
citizens, but investment in enterprises where U.S. companies would be 
permitted to hire and pay Cuban workers directly.
    Another area, which I would commend to the Subcommittee's 
attention, is the question of resolution of U.S. expropriation claims. 
As you know, the embargo was originally placed on Cuba in response to 
the expropriation of U.S. private commercial assets following the 1959 
revolution. One of the lessons we learned from post-communist 
recoveries in nations like Nicaragua is that the legacy of these 
dispute claims can hobble a new democratic government for decades and 
retard desperately needed investment for development because property 
titles remain in dispute and subject to future litigation. The Task 
Force recommended one possible way to begin to resolve these disputes 
by allowing equity in existing Cuban enterprises to be used to resolve 
such claims if the claimant agrees. Other mechanisms could be explored. 
But I believe that it is in the interest of a future democratic Cuba 
that we begin to explore modalities for discussing and beginning to 
create a mechanism for such claims resolutions even before a democratic 
transition has begun. I would urge the Subcommittee to give this matter 
attention in the future.
    There are many other issues we could discuss. In the interests of 
the Subcommittee's time I would prefer to conclude my formal remarks 
and take any questions you might have. Thank you.

    Senator Dodd. Thank you very much. Very fine testimony, and 
I certainly want to second your comments. I have had a deep and 
abiding respect for the exiled community as well. And for those 
who have not had their families suffer as many Cuban-Americans 
have, I do not think they understand this is not just a neck-up 
reaction. There is deeply felt, passionate feelings about what 
has happened.
    And I think you need to understand that and appreciate it. 
And I certainly do. And I too regret that over the years this 
has been--any debate about different approaches has always 
resulted in name calling which I do not think has served the 
interest of our own country.
    After all, our primary responsibility here is to see to it 
we do things that are in the interest of the United States. And 
so it has been disappointing to me. It has been very, very 
difficult over the years to start talking about alternatives 
without being labeled, or at least attempts to label people as 
being soft or non-caring about these regimes.
    And I know earlier Senator Nelson made the issue of 
terrorism coming from possible Cuban vessels to the United 
States. Obviously all vessels that come here pose some threats 
to us. And I recall very vividly it was a man name Orlando 
Bosch who fired a rocket at a Polish ship in a Florida harbor 
because it had stopped in Havana to come here.
    So there have been terrorist acts associated here. But we 
need to keep in mind that this is not all coming from one 
particular angle or another.
    Let me ask you, because you had your--by the way, I am 
going to set the clock for 5 minutes, we have got to move this 
thing along so we do not end up with lengthy statements here.
    The task force on Cuba has been operating since 1998. And I 
gather it is a fairly diverse group of people. And the task 
force has gone out of its way to make sure that there is a wide 
range of views. Is that accurate or not?
    Mr. Aronson. Yes.
    Senator Dodd. Give some sense of that just----
    Mr. Aronson. Well, you know, we self-consciously tried to 
do something that had not been done before which is to bring 
together people who may disagree about the embargo and see if 
we could build some common ground on other issues.
    And I think particularly in the first report there was a 
lot of common ground built around this notion of supporting 
civil society inside of Cuba, people-to-people exchanges. The 
licensed group travel was a recommendation we made and which 
the Clinton administration embraced.
    And I think the second group went ahead and recommended the 
end of the travel ban as well. There was less consensus about 
that, to be fair, because of the issue that Senator Allen 
raised which is who is the net beneficiary, and there are 
tradeoffs in that.
    But I think that the travel ban does not exist anymore. I 
do not know the exact numbers but upwards of 150,000 Americans 
I think went to Cuba legally under licensed provisions last 
year.
    So the question is whether you have this kabuki dance where 
you create a group and you go under those circumstances or you 
can go as an individual. And I think the horse is already out 
of the barn on this issue.
    I would rather try to press in the direction I was talking 
about which is to create some sort of pressure on the Cuban 
Government to pay workers directly and, I mean, to allow the 
enterprises to pay the workers directly and hire them directly 
and allow the travel to go forward.
    It is very hard to understand what causes a totalitarian 
state to implode. And I have watched this process as all of us 
have and I have talked to a lot of participants. But I think at 
the end of the day it is when the rest of the people lose their 
fear of the regime and recognize that the vast majority of 
their compatriots hate the regime as much as they do.
    People are afraid to talk to each other. And I think that 
the engagement with free people is subversive. I went to the 
Soviet Union in 1974. And I remember very well that all of the 
guides that they sent with us who were all party members were 
very disciplined in the beginning. And they were always on the 
bus on time. And they always gave the party line.
    And here we were, a group of Americans. Of course everybody 
had their own views and no one came on time. And I just watched 
their body language over 17 days. It was painful for them to be 
around free people because they were not free people.
    And I think it undermined who they were. I think they did 
not like being robots around free people. I don't mean it 
simplisticly. But I think freedom is subversive. And I think we 
should not under estimate the intangible value of this.
    But I think that those who advocate this also have to be 
the strongest advocates for the human rights in Cuba and 
defending the dissidents and the brave people standing up so 
that everybody understands this is not just commercially 
driven.
    Senator Dodd. If I could add too, as well as listening to 
the dissident human rights activists inside a place like Cuba 
who bring a very different set of issues to the table than 
those who are not necessarily living in Cuba, who care about 
the issue very much, I have always found it interesting to 
compare the views on some of these issues that we have raised 
today, when you raise them with the people inside Cuba, many of 
whom have spent years incarcerated by the Castro regime, who 
have ironically a different reaction to some of these 
suggestions than those who have been outside of it.
    I wonder if you might, and I want to just again underscore 
the point you made, I do not think there is a single approach 
you could take on what works best when you are dealing with 
either authoritarian or totalitarian regimes in how you respond 
to it. The idea that one approach is always going to produce 
the desired results I think could be proven terribly false.
    You need to judge under the set of circumstances you are 
dealing with, maybe sometimes the combination of things that 
produce results. And I gather if you look here, I would like to 
make just a quick analysis if you would, on the task force 
recommendations and the bill we have before us. I mean, are 
these track--we tried to in our bill track here the task force.
    Mr. Aronson. They actually track almost provision by 
provision. We didn't support--we didn't call for a study on 
credit, but otherwise ending the ban on the sale of food and 
medicine and the travel ban, scholarships. We didn't speak to 
the issue of ending the provision which I think is in the Cuban 
Democracy Act banning the ship travel. But I think it is a 
logical extension if you allow food and medicine in.
    While Senator Nelson is correct that every ship that comes 
in today is an extra security concern, I think that is a 
security concern. I do not think it is heightened because of it 
might have stopped in Cuba, although if we discover it is, then 
I think we had better stop that practice.
    But I think by and large our recommendations are pretty 
much on track with what the legislation calls for.
    Senator Dodd. One point on the scholarship issue. The 
administration proposal on the scholarship program is to allow 
scholarships to go to the children of dissidents. I think the 
children of dissidents ought to be able to qualify for these 
scholarships, but it limits it to those people.
    My view has been that you shouldn't exclude them obviously, 
but you should not necessarily limit it. And I wonder our bill 
does not limit it.
    Mr. Aronson. I would agree. You know, one of the lessons we 
learned watching Eastern Europe change and watching the Soviet 
Union collapse is that in these times of transition you never 
know who is who in these regimes.
    Boris Yeltsin was a member of the Politburo of the Soviet 
Union, the highest political body. Probably more than any other 
single individual in Russian history, he put the last nail in 
the coffin of Soviet communism.
    And I think you find individuals whether through conviction 
or opportunism or change of view, who at a time of transition 
are ready to either participate in or support or tolerate a 
transition. And you don't know who is who in these regimes.
    I think we have to have more confidence that our values and 
our system is stronger than the coercion that they live under 
and that we can find allies in places we don't even know about 
and don't even know who they are.
    I do not know if you remember, Senator, my Soviet 
counterpart Yuri Pavlov with whom I negotiated on Central 
America. It was my first trip as Assistant Secretary of State. 
Well, he had been a reformer all his life. But he had never had 
the courage to tell anybody except one individual who said, 
don't ever repeat that.
    And he actively collaborated with us, and so did his 
government in ending the Sandonista regime through democratic 
elections, ending the war in El Salvador. I think there are 
Yuri Pavlovs all throughout Cuba. And I think most Cubans 
understand that the future is not going to resemble the last 50 
years.
    So I think having some confidence to reach out to these 
people is very much in our interest. I think we will find some 
allies.
    Will we be used to some extent, yes. I don't think we 
should allow the Cuban Government to control the process of 
this scholarship. And if they do, we would have to review it.
    But I think limiting it that way, I think in a way it will 
stigmatize the recipients. I think that no scholarships will be 
issued, to be honest.
    Senator Dodd. Our time is up but you have provoked one 
comment from me. I do not know if it is still the policy, and I 
hope it is not, but I have a feeling it may be, and that is to 
prohibit members of our own interest section to have much of 
any contact with their counterparts in the Cuban Government.
    Now, there are obvious reasons I suppose to be worried 
about that but I propose specific examples where a couple of 
young Foreign Service officers in the Cuban Interest Section 
were prohibited from having contacts with other younger people 
in the Cuban Government. And I thought it was a grave mistake.
    These people could at the very time be the Pavlovs in the 
next 15, 20 years less than that, when change occurs we have 
established those contacts and relationships. Now maybe the 
policy has changed but I know a year or so ago, maybe someone 
correct me if it has, that does not make a lot of sense to me.
    If you have an intersection there, it seems to me if you 
hire smart enough people who are secure in their own 
patriotism, they are not going to be coopted by people through 
conversating contacts. So I hope those have changed. Senator 
Chafee.
    Senator Chafee. Thank you, Mr. Chairman. The chairman 
mentioned that you were the co-chair of the Council's Task 
Force on U.S.-Cuba Relations, and in your deliberations what 
impediments did Helms-Burton raise and how do we reconcile the 
direction to go with the restrictions that we have under that 
legislation?
    Mr. Aronson. Well, actually, I am glad you asked that 
question, Senator, because I think one of the provisions of 
your bill would restore to the President the flexibility to end 
the embargo which I think was codified by Helms-Burton. We 
didn't address that issue.
    One of the bargains we made was we are not going to talk 
about Helms-Burton. We are going to try to find common ground 
in other areas. But as somebody who comes out of the executive 
branch, I think it is wise and necessary to give the President 
of the United States the flexibility to conduct foreign policy. 
And I would much rather see the President vested with that 
authority than the Congress.
    With all due respect to the Congress, I just think you 
cannot have 535 Secretaries of State. And while the Congress 
has----
    Senator Dodd. You can have them. They just do not work very 
well. We have got them.
    Mr. Aronson. Yes, takes up a lot of time. So I think that 
is one area which needs to be addressed. Title 3 as you know 
continues to be waived, so it is there in the books, but no 
President, neither President Clinton, President Bush or current 
President Bush has exercised that right and believes it is in 
our interest to do so.
    I think that the embargo is already being amended in many 
ways because ultimately what the embargo says is you cannot 
spend dollars in Cuba. All of this licensed group travel is 
spending dollars in Cuba.
    If you have travel to Cuba, you will have more dollars 
spent in Cuba. The remittances if they are lifted will add more 
dollars to Cuba though they don't violate the embargo. So I 
think that policy is evolving.
    But I would support giving that authority back to the 
President. I think that is where it belongs. Because ultimately 
some President is going to want to bargain with some successor 
regime. And I think that he or she should have that power to 
bargain and use those chips if the Congress hasn't already 
acted. I don't know if that answers the question you asked.
    Senator Chafee. Thank you. Regarding the Varela Project, my 
own theory is that the President in Cuba let that happen as a 
signal to the West. I cannot imagine that he would allow that 
to go forward without some acquiescence as a signal. I believe 
he has got an ego. That is no understatement.
    So he has got to send out signals to us that things are 
changing and doors are opening. At the same time, though he 
must protect his dream of the revolution, despite that it has 
obviously failed. As I said before we have to take these 
signals seriously in biomedical issues, in agriculture and in 
travel. We must move forward as times are changing.
    Mr. Aronson. You know, I find it curious that they allowed 
the Varela Project to go forward. I think you are correct. They 
could have stopped it at any time.
    They did harass and intimidate a lot of the participants. 
They did not make it easy for them. But I do not know why they 
allowed it to happen, though they clearly are not going to let 
it go any further.
    That was the thrust of what was done in the last week or 
so. But to me the real story is not that they let it go 
forward, though I think that it is interesting, but that 11,000 
Cubans were brave enough to do what they did because that took 
a lot of courage.
    And to me that suggests part of what we are talking about 
which is the transition has already begun. We do not know how 
it is going to play out, but I think it has already begun. I 
think the youth in Cuba have no interest in Cuban style 
socialism. I think that everybody understands that when El 
Viego goes, that there is going to be a change.
    But nobody knows exactly the form. And I think the fact 
that the Varela Project happened is a good sign that the times 
there are changing, as the great foreign policy expert Bob 
Dylan once said.
    Senator Chafee. I guess I am a hopeless cynic, but in the 
Varela Project I believe he could be accepting of people 
signing the petition. ``Go ahead and sign it,'' he might be 
saying. I see the strong fist with which he rules that country 
and I suppose I'm just being very, very cynical.
    Mr. Aronson. You are correct that it would not have 
happened without the regime, without them allowing it to 
happen. And I do not really know why they did. Because he is 
not really sending a signal. Because his signal is never.
    He is now collecting several million signatures saying they 
are going to enshrine in the constitution that socialism cannot 
be altered. That is what this latest petition drive is about. 
So he's trying to say maybe there are 11,000 people who signed 
the Varela, but millions of Cubans love the revolution and want 
it forever.
    So that is the signal he is sending today. It doesn't 
happen to be true, but that's the signal he would like to send.
    Senator Chafee. Thank you.
    Senator Dodd. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. Secretary Aronson, 
it was good to hear your optimism and your thoughtful approach 
and experience in these matters. And in trying to apply what 
we've learned in history versus to the facts of the case here 
which may not be applicable, but nevertheless very thoughtful 
remarks. I am glad you are here to share them with us.
    Your comment, freedom is subversive, I would just with all 
due respect, I would just simply use the phrase freedom is 
invigorating. That is the way I would look at it. But you bring 
up some ideas. The contingency ideas, in other words if you 
want us to have, say, the travel ban, the remittance matter, 
you can almost change that just by indexing it.
    But regardless, as far as your contingency approach if Cuba 
and the Castro regime, allows this greater freedom and 
directness whether it is in money or access to hiring, then we 
will change our policies I think, Mr. Chairman, is something 
worth exploring. And I would hope that you would continue to 
share with us your views on how that sort of contingency 
approach would go forward.
    You gave some caveats. As far as financing of food or 
medicine sales, you said do not finance them. Do not allow 
financing through U.S. banks. What would be the financing 
facilities?
    Mr. Aronson. Right. I support allowing U.S. banks to handle 
those under normal commercial terms. There is a provision in 
the bill that calls on the Secretary of Agriculture to study 
credit enhancement programs vis-a-vis Cuba. And while I think 
having the study is fine, I would not support credit 
enhancement, I used to know this when I was in the government 
but there are various credit enhancement programs where you can 
get concessionary terms to buy U.S. agriculture or goods.
    We have these programs all around the world. I would not 
advocate that for Cuba at this time.
    Senator Allen. Do you find----
    Mr. Aronson. But I do think at this point if they are going 
to buy U.S. grain and get a commercial line of credit, a normal 
line of credit, I do not know what the logic is of saying they 
should get it from the Bank of Nova Scotia as opposed to the 
Bank of America. It does not help the regime any to pick a 
Canadian bank over a U.S bank which is what the current law 
would require.
    Senator Allen. Well, the only concern there would be 
potentially is if they defaulted then the taxpayers of the 
United States would be ultimately responsible.
    Mr. Aronson. Well, I think in this instance it would be 
private transactions. That point would be the case if it was 
some U.S. Government credit enhancement programs.
    But I think in this case it would just be private banks 
taking the risk. So I think in that case let the market decide.
    Senator Allen. The other issue that you alluded to and 
discussed, and so did the chairman, was that seemingly when 
President Bush's initiative for a new Cuba mentioned 
scholarships, and granted it does say for family members of 
political prisoners but it also establishes scholarships in the 
United States for Cuban students and professionals which I 
think at the least is common ground.
    You know, Cuba compared to even the People's Republic of 
China, there are many citizens from the People's Republic of 
China who are studying in our colleges and universities and go 
back. So while I am not going to say that the People's Republic 
of China is the most enlightened country in the world, they at 
least allow thousands of students to come here and learn.
    Assuming we could get a common ground on at least that 
aspect of it, what do you think the Castro regime's response 
would be to allowing students to come to the United States to 
study on scholarships?
    Mr. Aronson. Well, I think first it depends on how it was 
couched in our case. I think we should try to couch it in 
educational terms and not political terms.
    And then second, I think it would depend on the criteria by 
which we determine they would have to be chosen. If we set 
criteria that are too overtly political, probably they won't 
allow it to happen. But I think if it is done for educational, 
business and other purposes, I think it probably could evolve 
over time; maybe not day one.
    And I think the China analogy is a good one. Because one 
reason why I am hopeful about the future of China, and I think 
China has changed significantly in the last 20 years though it 
is by no means a democratic state, but I think it has changed 
from the time I first visited it, is that those students who 
tend to be the sons and daughters of the elite who studied over 
here in U.S. universities, about 20,000 of them. I think they 
are going to be the agents of a different China.
    It is not always the case, but I think young people who 
have come over here and lived in a free society are not so 
interested in coming back and living under the lock and key of 
a totalitarian regime.
    It isn't always the case, you know. Mohammad Atta was an 
engineering student. And it didn't seem to have a very 
constructive effect on him. But I think by and large that when 
I say freedom is subversive, I think it is subversive of 
totalitarianism.
    Senator Allen. Understood. Thank you, Mr. Secretary.
    Senator Dodd. Thank you very much. And I just come back a 
bit. The question of conditionality on the remittances or on 
the travel. As a general matter, I do not like giving anybody 
veto power over my policies in the United States. Either you 
have them or you do not have them.
    When you start placing conditions on policies like that, 
you too often then defer or transfer power to the very people 
you want to deprive of that decisionmaking.
    If I want them to build a veto power in Havana, I would 
rather have us decide how it makes sense or it does not make 
sense and decide on that.
    I am concerned that we have seen an uptick here, some 400 
people now as I mentioned in my opening comments have been 
subjected to some penalties because they were truthful in their 
responses about having gone to Cuba not through some licensing 
process.
    And with all the work we have to do to be chasing 400 
Americans because they went to Cuba, when I can think of some 
other people they might be keeping an eye on right now, I 
wonder about the wisdom of all of that.
    So I would hope we keep that point in mind as we look at 
this, that I found we are getting ourselves in trouble when we 
try and place conditionality, the assumption being that this is 
necessarily a great asset, free travel to Cuba.
    Now clearly there is a dollar amount coming in. But I can 
tell you flat out that I also know they are weighing the 
benefits and the liabilities. And I think one of the great 
fears of totalitarian and authoritarian regimes is light.
    They slide best in darkness. And when you all of a sudden 
flood, as you would, we are not talking about a trip to Vietnam 
or China now, but a hydrofoil will get you across there in a 
matter of minutes. The notion of having thousands of Americans 
and others joining, showing up; you are a closed society. That 
is an intimidating prospect.
    The value of having the dollars coming in is clearly an 
asset. But the notion you could end up with as much I think of 
an influx of U.S. citizens possibly going there has got to be 
very intimidating, if your idea is to perpetuate this closed 
society. So that is why I raise that issue.
    But nonetheless, well, certainly any suggestions and ideas 
in this area are helpful. We could carry on a conversation just 
with you, Bernie. You have been very helpful. We could bring 
you back. We have hearings on Mexico and Colombia.
    Mr. Aronson. I'll come back for Colombia. That's a subject 
I have been paying a lot of attention to.
    Senator Dodd. The President elected yesterday and I would 
hope that we can find some real opportunities to present 
themselves in working on that issue. So we'll continue calling 
on you. Thank you, sir.
    I am glad you are interested. I am glad you approve that 
while these aren't the hottest issues in town, other issues for 
obvious reasons are, I thought as the chairman of the 
subcommittee it would be worth our while to periodically do 
reviews on where we are and help the people.
    Mr. Aronson. I think it is very important. I think it 
matters to Latin America that we are paying attention. We 
obviously have important security concerns these days, but I 
think there is a sentiment in the region that we are not too 
engaged these days. And I think we need to send counter 
signals. So I applaud the subcommittee for doing this. I think 
it makes a difference.
    Senator Dodd. We'll leave the record open.
    Mr. Aronson. Thank you. And I'll introduce the two task 
force reports \1\ with your permission.
---------------------------------------------------------------------------
    \1\ The reports referred to can be accessed at the Web site of the 
Council on Foreign Relations http://www.cfr.org/ and are entitled as 
follows: ``U.S.-Cuba Relations for the 21st Century,'' January 1, 1999, 
and ``U.S.-Cuba Relations for the 21st Century: A Followup on the 
Chairman's Report,'' February 1, 2001.
---------------------------------------------------------------------------
    Senator Dodd. Thank you. We will make them part of the 
record. We'd like to have them. Thank you very much.
    Senator Dodd. Our second panel, I have already introduced 
you, and I hope I have pronounced the names correctly. We are 
going to have you join us up here at the table, Dr. Leshner, 
Dr. Morton, Dr. Bridges, Dr. Rasenick. Thank you all for being 
here.
    Senator Nelson is going to try and get back. Again it is 
like any day around here, busy days during the week in the 
afternoon. Senator Allen I know wanted to stay as well, and 
Senator Chafee is going to have to leave us as well. So I thank 
Senator Chafee for being here.
    What I would like to do is first of all thank all of you. 
It is tremendously helpful to have you here and be a part of 
this subcommittee hearing. I have already sort of introduced 
you in terms of background and the like. I didn't give you the 
lengthy introductions you probably richly deserve, but we will 
leave that for the record.
    Senator Dodd. Let me introduce you in the order that I 
mentioned your names. Dr. Leshner, we'll start with you. You 
are our lead-off witness. I am going to tell you that all of 
your statements, any supporting documentation we will make a 
part of the permanent record. I will ask unanimous consent to 
do that.
    And second, I am going to put, say, around 7 minutes on the 
clock. If you can do it in less, fine; if not, fine, do not 
worry about it. But just so we give you some sense so we can 
try and get through the testimony, if we can.
    So with that, Dr. Leshner, thank you for being here. And we 
will receive your testimony.

 STATEMENT OF ALAN I. LESHNER, PH.D., CHIEF EXECUTIVE OFFICER, 
     AMERICAN ASSOCIATION FOR THE ADVANCEMENT OF SCIENCE, 
                         WASHINGTON, DC

    Dr. Leshner. Thank you, Mr. Chairman. I am delighted to be 
here and have the opportunity to set the stage and discuss the 
importance of open international scientific exchange.
    I represent the largest general scientific society in the 
world. We have over 130,000 members and 272 affiliated 
societies. Our members come from the entire range of science 
and engineering disciplines in many nations throughout the 
world.
    In the 21st century, the science and technology enterprise 
is truly global in character. Modern information and 
communication technologies as well as the ease of international 
travel have transformed what once were individual national 
scientific communities into really a single world community.
    Collaboration across national boundaries is the norm, no 
longer the exception. And virtually every country has some 
scale of science it conducts, as everyone has come to 
understand the centrality of science and technology to every 
facet of modern life. Those peoples without access to science 
and technology are doomed to be disadvantaged long into the 
future.
    We've also learned that in the 21st century context, it 
works against everyone's interest to isolate any individual 
national scientific community. We of course recognize the 
primary need to protect individual and national security, but 
there is no credible reason to limit international 
collaboration in non-classified research.
    In a 1999 resolution, the AAAS, the American Association 
for the Advancement of Science board of directors emphasized 
that progress in science and technology is greatly enhanced by 
the unfettered exchange of information, especially freedom of 
movement across countries and a right to travel.
    They argued that such progress actually promotes national 
security and promotes democratic decisionmaking and the general 
welfare by ensuring access for Americans to later discoveries, 
whatever their country of origin.
    The AAAS board argued that progress and science will be 
impeded in fact if political criteria are used to obstruct open 
international discourse of scientists and engineers.
    They also emphasized that the universal language of science 
is often a means to bridge the political chasms that divide 
nations. Numerous examples have shown that international 
scientific communication can be a very successful venue through 
which to begin broader diplomatic discussions.
    Obvious examples include scientific collaborations that 
were ongoing during the so-called cold war with the Soviet 
Union and difficult times in our relations with Chile. Free and 
open scientific exchange among countries builds trust and 
mutual understanding.
    We also believe that we have a human obligation to openly 
exchange scientific information and advances. The entire world 
is facing increasingly complex and often devastating problems 
of poverty, environmental degradation, human disease. Science 
and technology have a long and fruitful track record in helping 
to solve many of the most complex problems in humanity.
    AAAS believes that we in the American scientific community 
have an obligation to reach out to scientists and engineers 
around the globe and explore ways that science can improve the 
lives of people everywhere.
    Most scientists in the United States also agree that 
scientific and educational exchanges with their colleagues 
abroad are beneficial to the development of science in our 
country. And if you take the case of Cuba that we are 
discussing today in the area of environmental research, 
collaboration between the United States and Cuba has resulted 
in the discovery of new species, in an increased awareness 
about the importance of Caribbean biodiversity and joint 
publication and dissemination of other ecological and 
biological information.
    Additional potential benefits of increased collaboration 
with Cuban scientists include ways to prevent contamination of 
coastal waters and new approaches, as I'm sure you'll hear 
today, to sickle cell disease and vaccines for meningitis and 
hepatitis B.
    Representing the scientific community, the American 
Association for the Advancement of Science recently restated 
its mission as to advance science and innovation throughout the 
world for the benefit of all people. We believe that our 
discussion today can help us realize that noble goal. And I 
applaud you for holding this hearing and for raising this topic 
to national attention again. Thank you very much.
    [The prepared statement of Dr. Leshner follows:]

Prepared Statement of Alan I. Leshner, Ph.D., Chief Executive Officer, 
          American Association for the Advancement of Science

    Mr. Chairman, members of the Subcommittee, I'm delighted to be here 
and have the opportunity to discuss the importance of open 
international scientific exchange. I represent the largest general 
scientific society in the world with over 130,000 members and 272 
affiliated societies. Our members come from the entire range of science 
and engineering disciplines and many nations throughout the world.
    Mr. Chairman, in the 21st century, the science and technology 
enterprise is truly global in character. Modem information and 
communication technologies, as well as the ease of international 
travel, have transformed what once were individual national scientific 
communities into a world community. Collaboration across national 
boundaries is the norm, no longer the exception, and virtually every 
country has some scale of science it conducts, as everyone has come to 
understand the centrality of science and technology to every facet of 
modem life. Those peoples without access to science and technology are 
doomed to be disadvantaged long into the future.
    We also have learned that in the 21st century context, it works 
against everyone's interest to isolate any individual national 
scientific community. We of course recognize the primary need to 
protect individual and national security, but there is no credible 
reason to limit international collaboration in non-classified research.
    In a 1999 resolution, the AAAS Board of Directors emphasized that 
progress in science and technology is greatly enhanced by the 
unfettered exchange of information, especially freedom of movement 
across countries and the right to travel. They argued that such 
progress actually promotes national security, democratic decision-
making and the general welfare by ensuring access for Americans to the 
latest discoveries, whatever their country of origin.
    The AAAS Board argued that progress in science will be impeded if 
political criteria are used to obstruct open international discourse of 
scientist and engineers. They also emphasized that the universal 
language of science is often a means to bridge the political chasms 
that divide nations. Numerous examples have shown that international 
scientific communication can be a very successful venue through which 
to begin broader diplomatic discussions. Obvious examples include 
scientific collaborations ongoing during the ``cold war'' with the 
Soviet Union and during difficult times in our relations with Chile. 
Free and open scientific exchange among countries builds trust and 
mutual understanding.
    We also have a human obligation to openly exchange scientific 
information and advances. The entire world is facing increasingly 
complex and often devastating problems of poverty, environmental 
degradation and human disease. Science and technology have a long and 
fruitful track record in helping to solve many of the most complex 
problems of humanity. AAAS believes that we in the American scientific 
community have an obligation to reach out to scientists and engineers 
around the globe and explore ways that science can improve the lives of 
people everywhere.
    Most scientists in the U.S. also agree that scientific and 
educational exchanges with their colleagues abroad are beneficial to 
the development of science in our country. Take the case of Cuba that 
we are discussing today. In the area of environmental research, 
collaboration between the U.S. and Cuba has resulted in the discovery 
of new species, an increased awareness about the importance of 
Caribbean biodiversity, and joint publication and dissemination of 
other ecological and biological information. Additional potential 
benefits of increased collaboration with Cuban scientists include ways 
to prevent contamination of coastal waters and new approaches to sickle 
cell disease and vaccines for meningitis and hepatitis B. You likely 
will hear more from my colleagues on this panel today.
    Representing the scientific community, the American Association for 
the Advancement of Science recently restated its mission: ``To advance 
science and innovation throughout the world for the benefit of all 
people.'' I believe our discussion today can help realize that noble 
goal.

    [Attachment.]
       american association for the advancement of science (aaas)
    Founded 150 years ago, AAAS is the world's largest federation of 
scientific and engineering societies, with nearly 275 affiliates. AAAS 
counts more than 130,000 individual scientists, engineers, science 
educators, policymakers, and interested citizens among its members, 
making it the largest general scientific organization in the world. Our 
mission is to advance science and innovation throughout the world for 
the benefit of all people. Our objectives in this mission are to foster 
communication among scientists, engineers and the public; enhance 
international cooperation in science and its applications; promote the 
responsible conduct and use of science and technology; foster education 
in science and technology for everyone; enhance the science and 
technology workforce and infrastructure; increase public understanding 
and appreciation of science and technology; and strengthen support for 
the science and technology enterprise.
    The AAAS Science and Human Rights Program (SHR or the Program) was 
established in 1976 to give scientists a way to help their colleagues 
around the world whose human rights are threatened or violated. 
Mobilizing effective assistance to protect the human rights of 
scientists around the world remains central to its mission, as well as 
making the tools and knowledge of science available to benefit the 
field of human rights. AAAS Resources relating to scientific freedom 
and travel include:

    ``The Right to Travel: An Essential Freedom for Scientists and 
Academics,'' by Alastair T. Iles, and Morton H. Sklar; February 1996.

    ``The Right to Travel: The Effect of Travel Restrictions on 
Scientific Collaboration Between American and Cuban Scientists,'' Elisa 
Munoz, July 1998.

    Senator Dodd. Thank you very much, doctor. I appreciate it 
very much. I believe the next witness is Dr. Morton.

   STATEMENT OF DONALD L. MORTON, M.D., MEDICAL DIRECTOR AND 
SURGEON-IN-CHIEF, JOHN WAYNE CANCER INSTITUTE, SANTA MONICA, CA

    Dr. Morton. Thank you, Senator. I appreciate the 
opportunity to appear before this committee and provide 
comments and perspective on the topic of advances in medical 
research in Cuba. As a cancer surgeon, cancer researcher, as 
well as a cancer survivor, I have tremendous personal and 
professional interest in seeing that potential advances in the 
treatment of cancer from researchers located throughout the 
global community, including Cuba, be made available for the 
benefit of cancer patients in the United States and throughout 
the world.
    Cancer is a universal enemy of all mankind. Politics should 
not get in the way of our being able to take full advantage of 
life-saving treatments, whatever the origin.
    My work in the field of cancer and immunology began over 40 
years and 600 scientific articles ago. Ever since I became a 
physician, I have studied how the immune system can be 
stimulated to fight cancer. I have dedicated my career to 
advancing research and development of promising technologies, 
such as vaccines, for the treatment of cancer and eventually 
for prevention.
    Ultimately, I believe this will lead to breakthroughs in 
cancer treatments. Today we appear to be on the threshold of 
translating cancer immunology research into real treatments for 
difficult cancers.
    With over 500,000 people dying each year of cancer in the 
United States, at a public health cost of more than $100 
billion, the search for treatments and cures must continue to 
be purposeful and it must be relentless.
    No doubt cancer has touched the lives of everyone in this 
room today in one form or another. One of every three of us 
will develop cancer. And I know that this distinguished group 
is working hard to promote the advancement of cancer treatment 
and research. Today we need your support more than ever.
    I currently lead the John Wayne Cancer Institute as medical 
director and surgeon-in-chief. The John Wayne has emerged as 
one of the world's most innovative cancer research centers 
thanks to support from the National Cancer Institute and many 
generous private donors. Patients have traveled from more than 
40 foreign countries and 48 states to receive treatments from 
John Wayne physicians, many of whom are listed among the 
world's top cancer specialists.
    More cancer patients have received cancer vaccine on 
research protocols at the John Wayne than any other research 
center in the world. My own research efforts are currently 
focused on the development and improvement of therapeutic 
cancer vaccines which are designed to stimulate the immune 
system to fight cancer.
    As a result of over 40 years of research, a vaccine I 
developed for the treatment of advanced stage melanoma, a 
rapidly progressing and deadly form of cancer with an average 
survival of only 8 months, is being studied in large phase III 
pivotal international clinical trials, the final step before 
FDA approval.
    I serve on the board of directors and as a consultant to a 
biotechnology company which I founded and in which I have an 
equity interest, that is working to finalize the development of 
this vaccine and obtain regulatory approvals around the world 
to make the vaccine available to all patients.
    While on the day-to-day basis I am a surgeon, I strongly 
believe in the importance of basic research. And that is what 
brings me here today.
    I recently returned from a licensed, scientific exchange to 
Cuba, my first visit there, with all proper clearance received 
from the Treasury Department. During this trip I engaged in a 
rewarding academic dialog with Cuban scientists.
    While I have known about the quality of their work through 
public articles and presentation at American scientific 
meetings for some time, I was impressed by the depth and 
sophistication of their research, especially as it relates to 
cancer immunology.
    The Cuban researchers have made some interesting and novel 
discoveries and achieved significant progress in the 
development of cancer immunotherapies. Several of the 
immunotherapy products that were developed in Cuba are 
currently being tested in clinical trials in the United Kingdom 
and Canada. One type of immunotherapy product being developed 
by the Cubans is based on monoclonal antibodies, which are 
proteins produced by the immune system that target cancer cells 
like ``smart bombs''.
    This is an area of significant interest for cancer 
researchers, and there is at least three drugs approved by the 
FDA that involve monoclonal antibodies. Cuban researchers have 
also focused on developing therapeutic cancer vaccines that are 
designed to stimulate the immune system to develop antibodies 
that target cancer growth factors like epidermal growth factor 
receptors and gangliosides, which are glycolipid molecules that 
are present on the surface of certain tumor cells.
    The vaccine being developed by the Cuban researchers have 
shown promise in the treatment of kidney cancer, lung cancer, 
breast cancer and melanoma, all cancers with a poor prognosis 
of survival once they have spread. I left there very impressed 
with the quality of basic research with these technologies.
    I also left there very frustrated. The truth of the matter 
is that while the research results that I had seen from the 
Cuban research institutes are very promising, unless we are 
permitted to test and evaluate these approaches in the United 
States using the rigorous standards for medical research that 
are customary here, we won't really know how effective they may 
be in treating cancer. And importantly, unless subjected to the 
development and approval process required by the U.S. FDA, any 
products that emerge from the Cuban research will not be 
available to cancer patients in the United States.
    To further underscore the potential merit of medical 
research being conducted in Cuba, it is my understanding that a 
vaccine that was developed by Cuban researchers for the 
prevention of meningitis in children is currently being tested 
in international clinical trials.
    Further, I understand that the U.S. Department of the 
Treasury gave approval for a U.S. company to participate in the 
development of this important vaccine. This is a great example 
of a decision in which the well-being and health of our 
children was made the highest priority.
    Based upon my many years of experience in this field, it 
appears Cuban scientists have made potential important advances 
in cancer therapies. I believe that all U.S. citizens suffering 
from cancer deserve access to potentially life-saving 
therapies, and that such therapies should undergo the rigorous 
development and approval process of the U.S. FDA.
    Senators, I urge you to take the appropriate legislative 
steps to help us to thoroughly evaluate every possible option 
to save the lives of U.S. citizens afflicted with cancer. U.S. 
oncologists should be given access to the broadest possible 
armamentarium of options to treat cancer.
    I thank you all for your continuing support of cancer 
research. Let us not stop short of our goal by restricting the 
evaluation of medical advances that have the potential to save 
lives.
    Senators, create this bridge for the benefit of cancer 
patients, their families and friends. This is more than good 
public policy; it is the right thing to do for cancer patients 
desperate for new cancer treatments.
    Senator Dodd. Doctor, thank you very much.
    [The prepared statement of Dr. Morton follows:]

  Prepared Statement of Donald L. Morton, M.D., Medical Director and 
             Surgeon-in-Chief, John Wayne Cancer Institute

    Thank you for that kind introduction, Senator. I appreciate the 
opportunity to appear before this committee and provide comments and 
perspective on the topic of advances in medical research in Cuba. As a 
cancer surgeon and cancer immunology researcher, as well as a melanoma 
survivor, I have tremendous personal and professional interest in 
seeing that potential advances in the treatment of cancer from 
researchers located throughout the global community, including Cuba, be 
made available for the benefit of cancer patients in the U.S. and 
elsewhere. Politics should not get in the way of our being able to take 
full advantage of life-saving treatments--whatever the origin.
    As Senator Dodd mentioned, my work in the field of cancer and 
immunology began over 40 years and 600 scientific articles ago. Ever 
since I became a physician, I've studied how the immune system can be 
stimulated to fight cancer. From my early work at the National 
Institute of Health, to UCLA, and now at the John Wayne Cancer 
Institute, my focus on cancer has been clear: trying to understand what 
happens to the immune system during cancer progression and to develop a 
rational basis for cancer immunotherapy with the goal of impacting the 
course of the disease to help patients live longer.
    I have dedicated my career to advancing research and development of 
promising technologies, such as vaccines, for the treatment of cancer. 
Ultimately, I believe this will lead to breakthroughs in cancer 
treatments and potentially provide cures. Today, we appear to be on the 
threshold of translating cancer immunology research into real 
treatments for difficult cancers. With over half a million people dying 
of cancer every year in the U.S., at a public health cost of more than 
$100 billion, the search for treatments and cures must continue to be 
purposeful--and it must be relentless.
    No doubt, cancer has touched the lives of everyone in this room 
today in one form or another, and I know that this distinguished group 
is working hard to promote the advancement of cancer research and 
treatment. Among a long list, I am aware that Senator Helms has jointly 
sponsored a bill to require health plans to cover the cost of 
colonoscopies for persons older than 50 to improve early detection of 
colorectal cancer; Senator Boxer is a strong supporter of the U.S. 
Department of Defense Breast Cancer Research Program, including funding 
for the Lawrence-Livermore labs to use laser expertise for breast 
cancer research. This kind of public policy in support of advancing 
research targeted at early diagnosis and treatment is crucial in our 
effort to conquer cancer. Today, we need your support more than ever.
    I currently lead the John Wayne Cancer Institute as the Medical 
Director and Surgeon-in-Chief. I had the privilege of caring for John 
Wayne himself during his battle with cancer. JWCI has emerged as one of 
the world's leading cancer research centers, thanks to the support of 
the National Cancer Institute and many generous private donors. Each 
year, patients travel from more than 40 foreign countries and 48 states 
to receive treatment from John Wayne physicians, many of whom are 
listed among the world's top cancer specialists. The John Wayne Cancer 
Institute currently sponsors the third largest surgical oncology 
fellowship training program in the U.S. In terms of the amounts of 
peer-review funding, the JWCI is in the top 6% of the 2500 research 
centers receiving NIH funding. More cancer patients have received 
cancer vaccines on research protocols at the JWCI than any other 
research center in the world.
    My own research efforts are currently focused on the development 
and improvement of therapeutic cancer vaccines, which are designed to 
stimulate the immune system to fight cancer. As a result of over thirty 
years of research, a vaccine I developed for the treatment of advanced 
stage melanoma, a rapidly progressing and deadly form of cancer, is 
being studied in large phase III pivotal international clinical trials, 
the final step before FDA approval. I serve on the board of directors 
and as a consultant to a biotechnology company (in which I have a 
financial interest) that is working to finalize the development of this 
vaccine and obtain regulatory approvals around the world to make the 
vaccine available to patients.
    While on a day-to-day basis I am a surgeon, I strongly believe in 
the importance of basic research, and that's what brings me here today. 
I recently returned from a licensed scientific exchange to Cuba--my 
first visit there, and with all proper clearance received from the 
Treasury Department. I have also had the good fortune of having a Cuban 
research fellow visit the John Wayne Cancer Institute, during which 
time we gained knowledge of Cuban scientific research efforts. As well, 
during this trip, I engaged in a rewarding academic dialogue with Cuban 
scientists. While I've known about the quality of their work through 
published articles for some time, I was impressed by the depth and 
sophistication of their research, especially as it relates to cancer 
immunology.
    I learned that the Cuban researchers have made some interesting and 
novel discoveries and have achieved significant progress in the 
development of cancer immunotherapies. Many of these discoveries are 
protected by patents, which have been issued in the United States, 
Europe and other countries. In addition, several of the immunotherapy 
products that they have developed are being tested in clinical trials 
in the United Kingdom and Canada.
    One type of immunotherapy product being developed by the Cubans is 
based on monoclonal antibodies, which are immune system-derived 
proteins of exceptional purity and specificity that are being used to 
target cancer like ``smart bombs''. This is an area of significant 
interest for cancer researchers. The four monoclonal antibody products 
that have been approved in the U.S. for the treatment of certain types 
of cancer have demonstrated improved efficacy with reduced side effects 
compared to previous standards of care.
    Cuban researchers have also focused on developing therapeutic 
cancer vaccines that are designed to stimulate the immune system to 
develop antibodies that target epidermal growth factor receptors (EGFR) 
and gangliosides, molecules that are present on the surface of certain 
tumor cells. The vaccines being developed by the Cuban researchers have 
shown promise in the treatment of head and neck cancer, lung cancer, 
renal cell cancer, breast cancer and melanoma among others, all cancers 
with a poor prognosis for survival.
    I left there very impressed with the quality of basic research with 
these technologies. I also left there very frustrated. The truth of the 
matter is that, while the research results that I have seen from the 
Cuban research institutes are very promising, unless we are permitted 
to test and evaluate these approaches in the U.S., using the rigorous 
standards for medical research that are customary in the U.S., we won't 
know how effective they may be in treating cancer. And, importantly, 
unless subjected to the development approval processes required by the 
U.S. Food and Drug Administration, any products that emerge from the 
Cuban research will not be made available to cancer patients in the 
U.S.
    To further underscore the potential merit of medical research being 
conducted in Cuba, it is my understanding that a vaccine that was 
developed by Cuban researchers for the prevention of meningitis, an 
infectious disease that causes substantial mortality in children, is 
currently being tested in international clinical trials. Further, I 
understand that the U.S. Department of the Treasury has given approval 
for a U.S. company to participate in the development of this important 
vaccine. However, I also understand that it took two years for the 
approval to be forthcoming and it is my hope that these kinds of delays 
can be eliminated by Congressional action where life-saving vaccines 
are at stake. This is a great example of a decision in which the health 
and well-being of our children was made the highest priority.
    Based upon my many years of experience in this field, I can assure 
you that it is tremendously difficult to develop therapies that can 
directly affect solid tumor cancers--and the Cuban scientists appear to 
have made important advances in precisely this area. I believe that all 
U.S. citizens suffering from cancer deserve access to potentially life-
saving therapies, and that such therapies should undergo the rigorous 
development and approval process of the U.S. Food and Drug 
Administration.
    Senators, I urge you to take the appropriate legislative steps to 
help us to thoroughly evaluate every possible option to save the lives 
of U.S. citizens afflicted with cancer. U.S. clinical oncologists 
should be given access to the broadest possible armamentarium of 
options to treat cancer, and U.S. cancer patients deserve nothing less 
than the very best therapies available in the world.
    Thank you all for all your continuing support of cancer research. 
Let us not stop short of our goal by restricting the evaluation of 
medical advances that have the potential to save lives. Senators, 
create this bridge for the benefit of U.S. cancer patients, their 
families and friends. This is more than good public policy; it's the 
right thing to do for U.S. patients desperate for new cancer 
treatments.

    Senator Dodd. Dr. Bridges.

 STATEMENT OF KENNETH R. BRIDGES, M.D., DIRECTOR, JOINT CENTER 
FOR SICKLE CELL AND THALASSEMIC DISORDERS, BRIGHAM AND WOMEN'S 
                      HOSPITAL, BOSTON, MA

    Senator Dodd. We welcome you to the committee. Did I 
pronounce thalassemic properly? Is that----
    Dr. Bridges. It's thalassemic.
    Senator Dodd. I am obviously a lawyer, not a doctor talking 
here.
    Dr. Bridges. Thank you very much, Senator Dodd. I 
appreciate the opportunity to come before the subcommittee and 
to discuss some of the issues involving today not thalassemia 
but sickle cell disease. And speaking after a discussion of 
cancer, I think that it is somewhat of a disadvantage because 
most people have never heard of sickle cell disease; and yet it 
is the first disorder for which we knew the genetic basis.
    Sickle cell disease is the ultimate molecular disorder in 
terms of its designation. And it was discovered--now those 
things roll off as you probably know almost weekly if you read 
the scientific journals about a new gene which has been 
discovered for a particular defect.
    Sickle cell disease, the defect was discovered in 1956. And 
today we still have no cure for this disorder. It is a disorder 
that primarily affects black Americans because of its--and it 
is a historical factor relationship to malaria which is another 
story. But nonetheless, the progress that we've made over the 
years toward controlling the disorder has been very important.
    But curing the disorder and controlling the disorder are 
really different. We at some point will have genetic 
engineering and we will be able to cure this disorder. In the 
meantime, projects, treatments that involve control for this 
disorder that affects 70,000 people in the United States and 
produces severe disability. Severe pain is the major 
manifestation, and severe loss of longevity because people's 
lives are shortened to an average of about 40 years if they 
have sickle cell disease.
    Working with the kind of physician network that exists in 
Cuba would allow us to investigate more quickly the drugs, the 
materials that are now coming into the market that we have to 
understand their value in order to allow American citizens to 
benefit from these advances.
    I think that the bill which has been put before the Senate 
or before the subcommittee, I should say, for consideration is 
extremely important because it would allow us to take advantage 
of some very, very important aspects of the medical care in 
Cuba, which by the way is very good in terms of their basic 
medical care.
    One of the things we have to carry out are trials. And in 
order to carry out a trial you have to know where the patients 
are. And in this country we don't have a disease registry for 
sickle cell disease. In Cuba, there is. And therefore we know 
where the patients are, or they know where the patients are.
    We are really hampered by the inability to enroll patients 
in trials. And if we were able to cooperate with Cuba, in my 
statement I mentioned a most promising drug which has come 
along, hydroxyurea. When we conducted the study in the United 
States, 23 centers throughout the United States were engaged to 
enroll 300 patients.
    We could have enrolled half of those patients in Cuba and 
moved the study along much faster. That kind of cooperation is 
really what we need.
    The other issue is the fact that most of the care networks 
for patients have been developed for urban patients. And we now 
know that more than half the people in this country with sickle 
cell disease are not urban. They are in the rural areas 
throughout the south and other places. How do we deal with 
that.
    Cuba has developed programs that address that kind of issue 
because that is exactly their patient profile. So rather than 
reinventing the wheel, there are things that we can do through 
cooperation that will allow us to benefit Americans to move 
more quickly to the table treatments and therapies as well as 
provide more effective service for Americans afflicted by this 
terrible and debilitating disorder.
    Senator Dodd. Very good. And we will come back with some 
questions for you shortly, but we appreciate your being here 
and your eloquence on the subject matter.
    [The prepared statement of Dr. Bridges follows:]

Prepared Statement of Kenneth R. Bridges, M.D., Director, Joint Center 
    for Sickle Cell and Thalassemic Disorders, Brigham and Women's 
                          Hospital, Boston, MA

   the negative impact of the u.s. embargo of cuba on americans with 
                          sickle cell disease
    Sickle cell disease is one of the most common genetic disorders in 
the United States, affecting about 70,000 people. Despite a thorough 
understanding of its genetic basis, no cure exists. Sickle cell disease 
produces repeated episodes of tremendously severe, incapacitating pain 
throughout the body. The condition can damage nearly every organ in the 
body, with sequelae ranging from strokes in children as young as 2 
years of age to heart, liver and lung failure. The disorder occurs 
primarily in black Americans, shortening the life spans of its victims 
to 42 years for males and 48 years for females.
    Treatment of sickle cell disease has improved significantly in the 
past 15 years, propelled by landmark investigations funded by the 
National Institutes of Health. Chronic penicillin treatment in young 
children prevents morbidity and mortality from overwhelming bacterial 
infections. Investigators found that the drug, hydroxyurea, can prevent 
sickle cell pain episodes and even reduce mortality from the disorder. 
Hydroxyurea remains the only medication that can prevent complications 
from sickle cell disease.
    Despite these advances, people with sickle cell disease still have 
hard lives and face formidable peril. A workshop sponsored by the 
National Heart, Lung and Blood Institute, the Maternal and Child Health 
Bureau and the Office of Behavioral and Social Science Research on June 
13 and 14 addressed The Unmet Health Care Needs of People with Sickle 
Cell Disease. Experts from around the country along with patient 
advocates charted the challenges that still hobble people with the 
disorder, both literally and figuratively. A major question raised at 
the event was how investigators and health care providers could speed 
treatment development while a cure is being developed.
    The Pugwash Conferences workshop on Medical Research in Cuba: 
Strengthening International Cooperation, held in Havana, Cuba 15-17 
February 2001 produced information directly relevant to issues raised 
in the recent workshop in Bethesda. The population of Cuba is 
heterogeneous and includes many people of African heritage, thirteen 
percent of whom have sickle cell trait. The health care providers in 
Cuba have many resources that would allow a fruitful cooperative effort 
between our country and theirs.
    Cuba has a well-established patient care network. Excellent 
facilities for patient trials exist both in Havana and Santiago de 
Cuba. Cuba has a registry of patients with sickle cell disease, which 
is a valuable tool in clinical investigation. Knowledge of the 
whereabouts and current management of patients is essential to clinical 
investigation. Important investigations become unwieldy and sometimes 
impossible without these logistics.
    An example is the NIH-sponsored Multicenter Study of Hydroxyurea in 
Sickle Cell Anemia that proved the value of the drug to adults with 
sickle cell disease. The dispersed nature of patients in the U.S. 
combined with the absence of a disease registry forced the principal 
investigators to include 23 centers in the trial and spread the 
enrollment of the 300 patients over a period of years. Although the 
trial was officially closed in 1995, the need for follow-up continues 
to this day. As many as half the patients in this enormously important 
study could have been enrolled at a single site in Cuba, thereby 
accelerating a study that has been pivotal to victims of this disease.
    Currently, a large number of new therapies for sickle cell disease 
are reaching the stage of clinical trial. A research bottleneck is 
developing because no patient can participate simultaneously in more 
than one trial. Without a sickle cell disease registry or some other 
mechanism that allows them to reach out beyond their own local 
populations, some treatment and investigation centers in this country 
are literally running out of eligible subjects. Disease of the hip 
joint cripples many people with sickle cell disease, sometimes leaving 
them confined to wheel chairs. Investigators at the Children's Hospital 
of Oakland have coordinated a study to determine the best way of 
treating or preventing the hip problems. Too few patients have been 
enrolled over the course of four years to make any recommendations in 
large part due to the lack of a network for clinical trials.
    Cooperation between the U.S. and Cuba would not be a one-way street 
with respect to knowledge, expertise and experience. The Bethesda 
workshop identified care coordination of rural patients with sickle 
cell disease to be one of the glaring deficiencies of our current 
medical system. The sickle cell disease centers exist in major cities 
such as Boston, Atlanta, New York and Los Angeles. Providers in this 
country must develop ways of serving the needs of people who are 
outside the urban centers.
    The network developed in Cuba deals effectively with rural people 
who constitute a significant fraction of the population affected by 
sickle cell disease. A cooperative program between American and Cuban 
physicians would eliminate the necessity of reinventing the wheel in 
the U.S.
    Despite knowledge of the precise genetic defect that produces the 
sickle cell gene mutation, we do not know key aspects of the process 
that leads to disease expression. Ten-percent of children with sickle 
cell disease have strokes. What differentiates these children from the 
90% who dodge this often-lethal complication? Currently we have no 
solid leads.
    Cooperative work with Cuban physicians could open new avenues and 
point the way to new treatments. Knowledge of the patient population 
would allow the selection for study of children with sickle cell 
disease who differ primarily by a history of stroke. Careful 
examination by laboratory and genetic testing could allow isolation of 
the factors responsible for stroke. With this information, stroke 
prevention would be an attainable goal.
    Lifting the economic embargo, at least as it applies to medical 
care, would allow American and Cuban physicians to work together on the 
problems of sickle cell disease. Our society values each human being as 
an irreplaceable gift to the world. American and Cuban physicians alike 
want nothing more than a chance of preserving our most valuable asset: 
the health of our people.

    Senator Dodd. Dr. Rasenick, we thank you as well for 
joining us. You are an honorary Connecticut resident I guess, 
having graduated from Wesleyan University and Yale University 
Medical School; so we will temporarily claim credit for you.

STATEMENT OF DR. MARK M. RASENICK, PROFESSOR OF PHYSIOLOGY AND 
 BIOPHYSICS, AND PROFESSOR OF PSYCHIATRY; DIRECTOR, BIOMEDICAL 
NEUROSCIENCE TRAINING PROGRAM, UNIVERSITY OF ILLINOIS CHICAGO, 
                COLLEGE OF MEDICINE, CHICAGO, IL

    Dr. Rasenick. Thank you. And thank you for inviting me, Mr. 
Chairman. I'll summarize my remarks and leave the rest in the 
record. My day job is a neuroscientist. I study the molecular 
and cellular basis of the brain with the hope of understanding 
depression, how it works and how we can fix it.
    But I am also very interested in using science for peace 
and cooperation. And I organized a meeting in Cuba, a 
neuroscience meeting in Cuba in which we had 20 neuroscientists 
in Havana, 2 years ago. It was the first meeting of its kind 
and it really began to bring scientists together.
    I made six trips to Cuba over the last 4 years, and I have 
met with most of the leaders of the Cuban biomedical research 
community. I am familiar with both their capabilities and the 
challenges they face.
    First, I would like to discuss some of the advances made by 
Cuban scientists which could benefit those of us here in the 
United States. And I'll start with, I'll break them in a few 
categories. The first point is going to be clinical immunology, 
interferons and vaccines.
    We've heard from Dr. Morton about vaccines, and it is 
noteworthy that only the Cubans have developed a meningitis B 
vaccine. In addition to that, the Cubans are really at the 
forefront of interferon research. Interferons are proteins 
which can be used to kill cancer cells, kill viruses and 
suppress the immune system.
    In the United States, we've used them for therapy for 
hepatitis and therapy for multiple sclerosis. The Cubans are 
even experimenting with using interferons as a treatment for 
schizophrenia.
    Another thing I would like to talk about is low-cost brain 
imaging. Now, the Cubans have made their own MRI machines 
because no one would sell them MRI machines. And they have used 
very small magnets, and they operate them with a personal 
computer, yet they get decent images.
    Now, if we were able to import this technology, two 
benefits would be the development of smaller, lighter and 
cheaper MRI machines which could benefit rural America. And 
also if we were able to get the computer algorithms that they 
have been able to use, we could make our more powerful machines 
even more powerful and get much better resolution on our 
images.
    The Cuban Neuroscience Center has also developed very low-
cost brain imaging techniques using electroencephalography or 
EEG. That is basically putting a bathing cap with a bunch of 
electrodes over the head and a readout of the electrical 
activity of the brain.
    They have been able to use computers to map that activity 
so that they can get an image of the brain. This is really 
cheap technology. And they have been able to use it to pinpoint 
damage from a stroke. By bring this technology out to rural 
America and transporting by telephone line the computer files, 
we could have specialists in more concentrated and more 
sophisticated medical centers determine how a patient was 
affected. These doctors could indicate how to proceed in 
treating patients without having to transport them to the 
sites.
    Dr. Leshner talked about Cuba biodiversity and Cuban 
natural products. And the Cubans have been pioneering using 
natural products for a variety of purposes. They have made a 
drug from sugar cane to treat both cholesterol and high blood 
pressure. And I guess it is sweet at the same time, which would 
be nice.
    Senator Dodd. Just won our case here.
    Dr. Rasenick. And they have also made products from the 
marine organisms which Dr. Leshner was talking about, some of 
these are calcium channel blockers, which could be used to 
fight cardiovascular disease.
    Dr. Bridges and Dr. Morton have talked about clinical 
trials. And U.S. companies often use offshore sites to test 
drugs, especially in the later stages of development. As Dr. 
Bridges indicated, Cuba has highly trained medical personnel; 
and extensive medical records are available. This really makes 
Cuba an ideal site for clinical trials.
    Studies for new psychiatric drugs are currently being 
conducted in China by at least one U.S. drug company. And Cuba 
would be a much more palatable site. The benefits for both 
Cubans and Americans are significant.
    Cuba is also developing a municipal system for clinical 
genetics. Now, this is the era of the genome. And when we have 
very sophisticated medical records where people are generically 
well-known, this really offers a possibility to collaborate 
with the Cubans in gene mining--understanding the genotype of a 
population and understanding which genes are responsible for 
which diseases. This could be very beneficial in bringing about 
new therapies, based on generic causes for identified disease.
    I would like to specifically talk about S. 1017 and how 
that would facilitate the above technology. Title IV of section 
403 of the Bridges to the Cuban People Act would allow for us 
to begin to profit from partnerships with Cuban bioscience and 
biotechnology.
    We have heard today about how this would benefit us, and I 
will speak in a moment how it might benefit the Cubans. I want 
to reaffirm that this does not need to be the province of a 
single political party. In Illinois, our Republican Governor, 
George Ryan, has led two delegations to Cuba and is convinced 
that opening up trade is as good for Americans as it is for 
Cubans.
    So what will S. 1017 do that will allow for mutual benefit? 
Well, title III, section 301(a) allows for increased cultural 
exchange and provides for scholarships. We've heard about that 
a moment ago.
    I would like to urge you to change it a little bit because 
the bill does not allow for scholarships in biological or 
biomedical science. But I hope it can be changed. And if young 
Cuban nationals who engage in science went back, the excitement 
for the free exchange for ideas would be wonderful for Cuba.
    And, finally, I'd like to address the importance of S. 1017 
for the Cuban people. One of my Cuban colleagues once told me 
that the three great successes of the Cuban revolution were 
education, health care and scientific research, while the three 
great failures were breakfast, lunch and dinner.
    S. 1017 would create markets for our farmers while assuring 
that Cuban children have adequate nutrition. I have spent many 
hours in psychiatric hospitals viewing patients who were 
suffering from the side-effects of older-generation 
antidepressant or antipsychotic drugs because they didn't have 
access to the newer drugs with a more benign side-effect 
profile.
    Bridges to the Cuban People Act will not only help to ease 
their suffering but allow many of them to return to a normal 
life. We Americans have been carrying on a boycott against 11 
million people for 40 years because of a hostility toward the 
government of Fidel Castro. The boycott serves to push Cuba 
closer to a two-class society, those who get dollars from their 
relatives versus those who don't. But it has had no obvious 
effect on the government.
    We are told that we just need to keep the pressure on a 
little longer. As a scientist, I would never do the same 
experiment for 40 years if it didn't work. As Senators, I hope 
you realize the importance of heeding the needs of our children 
as well as children 90 miles off our shores.
    We need to move forward toward that goal. And the passage 
of S. 1017 is a good start.
    [The prepared statement of Dr. Rasenick follows:]

  Prepared Statement of Dr. Mark M. Rasenick, University of Illinois 
                      Chicago, College of Medicine

    Thank you, Senator Dodd, for inviting me to testify before the 
subcommittee.
    I am a Professor of Physiology & Biophysics, Professor of 
Psychiatry and Director of the Biomedical Neurosceince Training Program 
at the University of Illinois Chicago, College of Medicine. In addition 
to teaching, I have a research program that has been funded by the 
National Institute of Mental Health, the National Institute of Aging 
and other Federal Agencies since 1984. My research concerns how 
structural properties of nerve cells are altered by neurotransmitters. 
We hope that this will lead to understanding the molecular and cellular 
basis of depression and of certain dementias such as Alzheimer's 
Disease. Further, we are studying how antidepressant drugs work and we 
hope to use this information to develop more effective therapies for 
depression and related psychiatric disorders.
    In addition to science, I have been active in public policy. Two 
years ago, I was on sabbatical and served as a Robert Wood Johnson 
Fellow with the Senate Committee on Health, Education, Labor, and 
Pensions and with Senator Edward M. Kennedy, (D Mass.). Another policy 
issue in which I am involved is using biomedical research as an 
instrument of peace and social change. I am working with the Society 
for Neuroscience to help develop a Neuroscience Research infrastructure 
in Vietnam and have founded the ``Interamerican Consortium on Basic and 
Clinical Neuroscience''. In this latter capacity, I organized a 
binational meeting on U.S.-Cuban neuroscience cooperation which was 
held in Havana two years ago. During my six trips to Cuba over the past 
four years, I have met with most of the leaders of the Cuban biomedical 
research community. I am quite familiar with both their capabilities 
and the challenges they face.
    My testimony today will address some of those biomedical advances 
as well as the challenges faced by Cubans generally and Cuban 
scientists particularly.
    First I would like to discuss some of the advances made by Cuban 
scientists which could benefit residents of the U.S.
            1. clinical immunology: interferons and vaccines
    Interferons are a family of proteins which have been shown to be 
cytotoxic (kill cells), immunosupressive and antiviral (depending upon 
the type of interferon). Significant research was done with interferon 
and it was hailed as the next cure for a variety of human cancers. It 
turned out that interferon was useful against hairy cell leukemia, but 
otherwise was ineffective for cancer chemotherapy. Applied interferon 
research was generally abandoned except for the efforts in Cuba. 
Interferon-based drugs have recently been used successfully to treat 
multiple sclerosis and heptitis and may have a role in treating other 
neurodegenerative disorders. The Cubans have even been testing 
interferon as a treatment for schizophrenia. Cuban interferon 
technology could be paired with U.S. research to aid in new drug 
discovery efforts.
    Cuban science has been successful in the development of a vaccine 
against N. meningitidis, the organism that causes meningitis B. The 
current meningitis vaccine available in the U.S. (used for college 
students in dormitory living situations) does NOT protect against the B 
serotype. SmithKline Beecham has secured an agreement to manufacture 
and distribute this vaccine, and is currently working with it in 
Europe. Havana's Findlay Institute, where this was developed, has a 
number of other products in various stages of development. The ability 
to cooperate with U.S. drug companies, which can stage large clinical 
trials, will be of significant benefit both to Americans at risk for 
those diseases as well as the companies which participate in 
development of those therapies.
                       2. low cost brain imaging
    The Cubans have developed technology which allows them to use a 
small and relatively weak magnet (about tenfold lower in strength than 
magnets used in MRI machines in the U.S.) to get reasonably good images 
of the brain and various body parts. The Cuban MRI machines are 
operated with a personal computer (as opposed to the large computers 
needed for U.S. MRI instruments). Two benefits of importing this 
technology are: 1) development of smaller, lighter and cheaper MRI 
instruments which can be installed in more rural settings and in parts 
of the world where funds for large, sophisticated MRI instruments are 
not available, and 2) adapting novel computer algorithms to larger MRI 
instruments in order to improve resolution.
    The Cuban Neuroscience Center has also developed sophisticated 
Electroencephlographic (EEG) Imaging techniques. Using a 128 lead (we 
do EEG with 21) EEG, the Cubans have developed both equipment and 
computer algorithms which create an image of brain activity at very low 
cost. They have used this not only for epilepsy, but also to pinpoint 
the area of damage after a stroke with greater accuracy than a CAT 
scan. This technique could be used easily in rural locations which 
could transmit the computer files for analysis at a referral center.
                       3. cuban natural products
    Cuban scientists have isolated a product from sugar cane which 
appears to lower cholesterol AND inhibit clotting. This compound might 
prove to be an ideal one to treat atherosclerosis, as it would inhibit 
the formation of cholesterol plaques as well as preventing the clotting 
which leads to blockage of blood vessels. Many U.S. patients are 
currently treated with two drugs for these purposes. Cubans have also 
isolated several interesting compounds from local marine life. These 
compounds are toxins which marine animals use to immobilize prey. Some 
of these compounds have very specific actions on certain types of ion 
channels and the potential for drug development is intriguing. (Note 
that specific inhibitors of calcium channels are in widespread use for 
the treatment of cardiovascular disease).
        4. sites for clinical trials and collaborative research
    U.S. drug companies often use offshore sites to test drugs, 
especially in the later stages of development. Trials must be conducted 
by highly trained individuals and work best if the patients have a 
well-documented medical history. Cuba, with its highly trained medical 
personnel as well as the extensive medical records available for most 
patients, makes it an ideal site for doing this. Studies for new 
psychiatric drugs are currently being conducted in China by at least 
one U.S. drug company. Cuba would be a much more palatable site and the 
benefits for both Cubans (funds to defray costs of the trials and the 
availability of the newest drugs) and Americans (an ideal study 
population very close to the U.S.) are significant. An interesting new 
area of development is the investment Cuba is making, in developing a 
municipal system of clinical genetics. The National Center for Medical 
Genetics is being upgraded, and dozens of additional clinical 
geneticists have been trained in the last year. In the genome era is 
this a valuable asset for research, that is supported by the extensive 
system of primary care (and extensive and accurate medical records) in 
Cuba. This offers the possibility to collaborate in ``gene mining'' 
with the hope of identifying genes responsible for various human 
maladies and identifying novel drug targets for those diseases. Cuba 
offers unique advantages for this kind of research, and we should be 
actively collaborating with them on it.
Provisions of S. 1017 which will facilitate access to the above-
        mentioned technologies
    Title IV section 403 of S. 1017 (Bridges to the Cuban People Act) 
would allow for us to begin to profit from partnerships with Cuban 
Bioscience and Biotechnology. We have heard today about how this would 
benefit us and I will speak in a moment about how it will benefit the 
Cubans. This is not an issue that needs to be the province of a single 
political party. In Illinois, our Republican Governor, George Ryan, has 
led two delegations to Cuba and is convinced that opening up trade is 
as good for Americans as it is for Cubans.
    What else will S. 1017 allow for that will be of mutual benefit? 
Title III, Sec. 301(a) allows for increased cultural exchange and 
provides for scholarships for Cubans to study here. I have interacted 
closely with young Cuban neuroscientists. Most are clinically trained 
and would love to spend two years learning basic neuroscience. At this 
point, the bill does not allow for scholarships in Biological or 
Biomedical science, but I hope that this can be changed. Young Cuban 
Nationals who engage in this activity will bring back not only 
knowledge, but an excitement for the free exchange of ideas. It is 
equally important that senior scientists and clinicians engage in 
mutual exchange programs and you might consider modifying S. 1017 to 
help promote this as well.
S. 1017: benefit to the Cuban people
    Finally, I would like to address the importance of S. 1017 for the 
Cuban people. One of my Cuban colleagues once told me that the three 
great successes of the Cuban revolution were Education, Health Care and 
Scientific Research while the three great failures were Breakfast, 
Lunch and Dinner. S. 1017 would create markets for our farmers while 
assuring that Cuban children have adequate nutrition. I have spent many 
hours at psychiatric hospitals viewing patients who were suffering from 
side effects of older-generation antidepressant or antipsychotic drugs, 
because they didn't have access to the newer drugs with a more benign 
side-effect profile. S. 1017 will not only help to ease their 
suffering, but allow many of them to return to a normal life.
    We Americans have been carrying on a boycott against 11 million 
people for 40 years because of a hostility toward the Government of 
Fidel Castro. The boycott serves to push Cuba closer to a two class 
society (those who get dollars from their relatives vs. those who 
don't), but has had no obvious effect on the government or the popular 
support for that government. We are told that we just ``need to keep 
the pressure on a little longer''. As a scientist, I would never do the 
same experiment for forty years if it didn't work. As senators, I hope 
that you realize the importance of heeding the needs of both our 
children as well as those children 90 miles off our shores. We need to 
move forward toward that goal, and passage of S.1017 is a good start.

    Senator Dodd. Thank you very, very much. I thank all four 
of you. Dr. Morton, I know you have got a flight to catch, so I 
am going to, with the indulgence of your colleagues here, ask 
you some questions. Then if you have to leave, you just head 
right off. I will express again our deep gratitude for your 
coming a long way to be here.
    And I think the big fellow would be proud of you here, John 
Wayne, in coming to talk about these issues. Not only did he 
suffer at the end of his life of cancer, but I think you have a 
way of kind of blowing through all of this and getting to the 
heart of things pretty quickly. So I am pleased you are here.
    I sit on the Health and Education, Labor Committee, so we 
deal with a lot of FDA issues and the like; so I am fairly 
familiar as a layperson with the notion of clinical trials. But 
I suspect a lot of people may not be.
    The importance of the value of how they are conducted, you 
touched on this a bit already but I wonder if you might just 
expand upon this, in terms of new treatments why the clinical 
trial issue is so important. I know others of you have opinions 
on this but let me ask Dr. Morton his views on it, why this is 
so critically important.
    Dr. Morton. Well, the FDA and regulatory agencies 
throughout the world require that any new therapy be proven 
both safe and effective. And in order to prove that, one has to 
do with very few exceptions randomized trials where patients 
are randomly allocated to be treated with the new therapy 
versus the standard therapy or if there is no standard therapy, 
compared to no therapy or a placebo.
    And these trials are carried out at multiple centers 
throughout the world. Because our vaccine, that I am absolutely 
convinced works at the John Wayne, but in order to be a benefit 
to people throughout the world, one must show that it works 
everywhere. And so there has to be multiple centers involved in 
the trials.
    And this is a, depending particularly in cancer where we 
are talking about a disease that many patients because of 
standard therapy may be cured by that standard therapy, then we 
have to compare the incremental effect. And often a great home-
run will be considered saving 10 percent more patients with 
that particular treatment.
    So this requires large numbers of patients to be entered 
into these trials and participate in them in order to have 
unequivocal evidence of the effectiveness of that particular 
new drug.
    Senator Dodd. I appreciate that. How did you find out about 
the Cuban work on EGF vaccine?
    Dr. Morton. Well, actually it was at the American Society 
of Clinical Oncology meeting last year. There were two 
presentations by the Cubans. And it was really one of the more 
exciting new developments.
    And being interested in vaccines, I entered a dialog with 
the Cuban investigators, and we had some of the young Cuban 
scientists visit the John Wayne, who brought some of their 
antibodies and research reagents to our laboratories that we 
had an opportunity to test them. And then they invited me to 
come back for a visit. And that was the reason that, how I 
learned about it.
    Senator Dodd. Tell me what do you need to do in order to 
get the EGF vaccine in clinical trials in the United States?
    Dr. Morton. Well, I think----
    Senator Dodd. And how quickly do you think you know whether 
or not the vaccine is as promising as it appears.
    Dr. Morton. That is right. We need to have a commercial 
relationship with the Cuban institute that developed it that 
would allow us to import it into the United States and test it 
on U.S. patients. I had been looking at new approaches to 
cancer treatment for some 40 years on NIH committees and other 
things, and I'll have to say that these are promising 
approaches.
    But it is not until we have the opportunity to evaluate 
them by U.S. standards can we really know for certain that they 
are going to be as effective and as promising as the 
preliminary data from the Cubans suggests.
    Senator Dodd. And under existing law, the hurdles there, 
the normal hurdles that one faces with obviously trying to do 
this with any product, vaccine being developed offshore, there 
are additional ones here that you face.
    Dr. Morton. Well, yes. First of all, you have to get into 
the United States. And then the U.S. investigator has to apply 
to the FDA for a new drug investigational ruling to test it in 
the United States and describing the way that its test will be 
done and so forth.
    And the FDA is interested in drugs that can be--the whole 
purpose of the FDA development process is to develop new drugs 
for American patients.
    Senator Dodd. Right.
    Dr. Morton. So in order to do that, you have to be able, 
the American patients must have the potential to benefit from 
that involvement process.
    Senator Dodd. Now, you've been at this a number of years in 
the medical field. Just give us sort of a quick cursory 
impression you have of lab facilities, equipment, competency. I 
bet you have seen a lot that aren't so good, right here at home 
probably and elsewhere.
    Dr. Morton. Well, you know, I went there expecting to see a 
third-world country. And I was really surprised by the 
sophistication of the science and the equipment and the modern 
technology and approaches that I found.
    I also found the Cuban scientists to be very forthcoming 
and shared openly the results of their research with me and 
things that had not been published yet. So I came away 
realizing that this is an untapped resource in the fight 
against cancer, and that with proper collaboration and 
interaction, we can more rapidly move this forward.
    Senator Dodd. Well, I thank you. And there may be 
additional questions we may submit to you, but I do not want 
you to miss your flight. We are watching the clock up here. You 
have got to go to Dulles.
    Dr. Morton. I think it is too late. So I'll remain.
    Senator Dodd. Let me go to you, Dr. Leshner, if you have 
got a train. But I know that the American Academy for the 
Advancement of Science is actively promoting the rights of 
scientists for traveling to meetings, research exchanges. We 
have often heard that Cuban scientists have been denied visas 
to travel to the United States. I wonder if your organization 
has documented that has it gotten any better or worse in the 
last couple of years.
    Dr. Leshner. Of course it is difficult for us to really 
know the answer to that question. I think that the 
bidirectional problem is the cumbersome of the processes that 
prevent us from, us as a scientific community from 
understanding how you go about forging collaborations and what 
the rules are going to be.
    We don't have specific data of course on how many entry 
visas have been denied. But there have been examples of whole 
conferences that have been intended for example to focus on 
environmental problems in Cuba. And those have had to be 
canceled because Cuban scientists either were not allowed to 
leave Cuba or were not allowed to enter the United States.
    Senator Dodd. Well, keep an eye on that. We would like to 
know. That is one of the issues we are trying to break through 
here. I wonder, by the way, I did not ask Dr. Morton here, I 
realize it is not his specialty per se although, Dr. Rasenick, 
you may have more because of your focus on the biomedical 
areas, but I just wonder in your travels there, conversations 
and so forth, we have had allegations raised, obviously you may 
have read about them recently involving the dubious 
capabilities and the raising the specter that actually Cuba may 
have been involved in the production or developing technologies 
in the biological fields of weapons of mass destruction whether 
it is chemical or biological weapons.
    Secretary Bolton made some pretty dramatic remarks in his 
speech that provoked a lot of questions. We had a hearing here 
on the subject matter not too long ago. I am just wondering in 
your travels, and I realize you are not an inspector, per se, 
is there any information you have picked up that we ought to 
know about here which could shed light on the accusations at 
all that you are aware of?
    Dr. Rasenick. Do you want me to answer that?
    Senator Dodd. Yes.
    Dr. Rasenick. I have wandered freely through these 
laboratories and no one has stopped me in any incidence 
wandering the halls on a regular basis.
    We could also say many American drug companies have the 
capability of bioterrorism because they are growing large 
amounts of bacteria or viruses, which is what the chemists are 
doing in order to make vaccines. To make vaccines, you need to 
grow bugs. But these companies are not making weapons.
    It certainly seems like the Cubans are growing bacteria and 
viruses toward commercial interests rather than to make 
weapons. I would not like to accuse anyone without real data, 
and there is no evidence that the Cubans have made bioweapons.
    One other thing that is noteworthy is that if they were 
going to make weapons for germ warfare, would they really want 
to unleash it on a country that is 90 miles away from them? 
That would be counter productive.
    They are a little too close to really engage in that kind 
of thing with us as the target. I cannot state, categorically, 
that the Cubans are not making weapons, but the administration 
has no data that they are.
    Senator Dodd. Well, there is a difference between an 
American pharmaceutical company and the Government of Cuba.
    Dr. Rasenick. Of course. But I am saying that just growing 
a lot of bugs does not make one a purveyor of bioweapons.
    Senator Dodd. I understand your point. And I tried to make 
a similar analogy but I want to also make a distinction that 
there is a vast difference between motivations. We have 
treaties with other countries. The former Soviet Union, we now 
know, that despite treaties to the contrary they may have 
substantial quantities of highly contagious biological weapons 
or chemical weapons that were produced during the tenure.
    Now, we have no evidence that was the case here yet except 
the dual capability. But I was curious as to whether or not you 
picked up anything in your travels that would show----
    Dr. Rasenick. No one has ever tried to stop me from looking 
at anything and I have no suspicion.
    Senator Dodd. Withholding drugs from Cuba, let me stick 
with you, Dr. Rasenick. Cuba has been accused of withholding 
drugs to give foreigners, to give them to the foreigners and 
Cuban elite in their country. Is that your impression based 
upon what you have seen during your visits?
    If more U.S. drugs reached Cuba, do you believe that they 
would be available to average Cubans? Knowing the economic 
circumstances of an average Cuban where the pay amounts to $8 
or $9 or $10, I think it is a month, whatever it is, you start 
looking at the costs of some of these products. I do not know 
how Eli Lilly would survive if they were only going to charge 
for prescription drugs based on the monthly salary of an 
average Cuban.
    So the issue is raised, if we allow the products to be sold 
there, are we going to deny them in fact to many, many average 
Cubans who will never be able to purchase them in the first 
place.
    Dr. Rasenick. It is interesting that you use the example of 
Lilly, because one of the drugs that I am constantly asked to 
bring with me when I go to Cuba is Prozac. This is noteworthy 
for two reasons: One, this means that the Cubans clearly were 
not trying to counterfeit this drug.
    Two, as I mentioned before, the ``safe'' antidepressants, 
such as Prozac, are things that the Cubans don't have access 
to. I was asked to bring it for friends, but those friends are 
in very high places. They are people who are highly placed in 
both the politcal and the sience establishment--people who 
would clearly have access to drugs if there were preferential 
access in Cuba.
    Yet that didn't seem to be the case. They would ask for 
enough samples, to take until my next visit. It is noteworthy 
that I was never asked to bring Viagra, but I assume that no 
Cuban male would ever admit a need.
    Senator Dodd. I am not going to touch that at all. That is 
a Pfizer product anyway.
    Dr. Rasenick. Yes, that it is.
    Senator Dodd. Well, but the point being here, the 
legitimate issue raised with the exception of the ability of 
people other than through these dollar stores, I mean, I 
remember meeting a man when I was in Cuba, once meeting a 
person who was very, very upset because they had a sibling who 
was very sick and they needed--this was not a highly 
sophisticated product but they needed some antibiotics to deal 
with his flu-like symptoms.
    And the only place they could get them were in the dollar 
stores. They were not available in the average Cuban pharmacy. 
And they did not have the dollars to get them.
    And it was infuriating to them to sit there and know that 
in this case their brother was very sick and needed the help, 
and they could not get the help except if they could do it 
through areas that were only available to those who had the 
dollars or with the diplomatic corner in the lot.
    And I do not know if that is just an anecdotal or whether 
or not that is in fact pretty standard for the average Cuban.
    Dr. Rasenick. Even aspirin is in short supply there. And I 
found that giving people aspirin was something that was often 
appreciated enormously. But I also gave this to some of my 
friends who should have had access to drugs like that.
    It really is very sad. There just isn't enough to go 
around. But it doesn't appear that there is preferential access 
because these people were asking for it as well.
    Senator Dodd. Is there any doubt in your mind that Fidel 
Castro can get these?
    Dr. Rasenick. None whatsoever but my concern is 11 million 
other Cubans.
    Senator Dodd. Dr. Bridges, I want to thank you for what you 
are doing. And I don't know if you have been in touch or not 
with the Black Caucus in the House. I think they could very 
much benefit from some of your discussion.
    You are right. What you are dealing with is in an area not 
as well-known as cancer but it is tremendously important. I 
want to raise the profile of what you are doing. I suggest we 
put you in touch with some people there, good friends of mine, 
see if we cannot heighten the interest in the subject matter.
    But I wonder if you can envision an NIH study on sickle 
cell treatment using Cuba as a base.
    Dr. Bridges. Thank you, Senator Dodd. That is a very----
    Senator Dodd. Would you participate in such a study?
    Dr. Bridges. Yes, I would. In fact, Senator Dodd, I am 
currently working to develop collaborations between 
investigators in the United States and investigators in other 
countries. The other countries currently that we are working 
with are Egypt and Ghana; and I am also in contact with 
colleagues in Cuba over the possibilities of working there. Of 
course that is a much more difficult issue.
    The reason I say Cuba's been very, very important is really 
twofold. First, the organizational structure for medical care, 
although certainly there is no real comparison between the 
quality of medical care here in the United States, certainly if 
you have a severe illness versus Cuba, but basic medical care 
is very good and it is very spread out throughout the country.
    And as a result, we by working together can begin to ask 
questions where we can look at the entire population, the 
entire population of people affected by sickle cell disease and 
then to begin to dissect apart the issues.
    I just want to very briefly say that we often see medicine 
as being a science. And it is a science. However, there is also 
a part to the activity which is more art.
    And there are aspects of the approach to sickle cell 
disease and other disorders that involve issues that we 
consider unmet needs. There was an NIH conference just last 
week, the 13th or 14th of June talking about unmet needs of 
people with sickle cell disease.
    And again if I could just come back very briefly to the 
issue of people in rural areas, that was identified as a very 
serious problem for people with sickle cell disease. How do we 
get the services that exist in New York, in Boston, in 
Hartford, in Los Angeles; how do we get them to Muskogee in 
Oklahoma or how do we get them to a relatively isolated area.
    These are problems that have not been addressed in our 
country yet are of course extremely important for those 
individuals who are affected. That is a problem or that is an 
issue which has already been addressed in Cuba. And through 
exchange we could certainly benefit tremendously.
    Senator Dodd. I also want to raise this issue of the 
patient registries which I think is a very important issue here 
to try and deal with this. I wonder if there is any way for us 
to try and replicate the patient registries that Cubans have 
established here at home in the United States.
    Could that be done, No. 1; No. 2, to the extent there are 
difficulties doing it, are there things that the Cubans do in 
terms of how they develop patient registries in certain areas 
that we should learn from them by inviting some of their people 
here to set up to models there.
    Dr. Bridges. Yes. With respect to the establishment of 
registries, that is an essential part to attacking any medical 
problem. We can establish patient registries in the United 
States with respect to sickle cell disease. It would be a very 
difficult task beginning from top down which is how we would 
think about it at this point. It is going out and finding all 
the people, registering them.
    What has happened in Cuba, and it is very interesting, and 
that is that they have taken newborn screening. This is 
something which is very important for sickle cell disease. It 
is very important to know in a newborn if they have sickle cell 
disease. And almost all the states now screen for sickle cell 
disease.
    Senator Dodd. We had a hearing last week on newborn 
screening, we did, a committee I served on. And I am very 
interested about the great disparity on the number of disorders 
that various states test, some as low as four and others as 
many as thirty.
    Dr. Bridges. Correct. Absolutely.
    Senator Dodd. But all of them do sickle cell.
    Dr. Bridges. Almost all of them do sickle cell. And what 
that creates is a tremendous data base throughout the United 
States for newborns. We now know, and this has been going on 
anywhere between 5 and 12 years depending on the state, all 
newborns who have sickle cell disease.
    However, because of the differences between the states, 
there is no communication. And the way the Cubans approached 
this was to begin with newborn screening, and as those children 
grew up, they had a registry in place.
    And so those are some of the ideas and approaches that we 
could use in this country to capture information which is 
already there. It's not that we are going out and creating a 
new vehicle but we are capturing information which is already 
there.
    Senator Dodd. Well, I think that I can, again, I can make 
this the subject of a separate hearing. But you have been very, 
very helpful, all four of you. Dr. Morton had to try and catch 
that plane, I guess. And I want to thank you. I want you to 
stay in touch with us as well.
    But for those who question the value of trying to maintain 
or expand on some of these contacts, whether it is cancer or 
sickle cell anemia or depression or neurosciences, three 
wonderful examples of work that is being done 90 miles off our 
shore that could be of great benefit to us here at home, not to 
mention others around the world.
    And that is not an endorsement of a government's system 
here at all. But we have learned in various places how to walk 
and chew gum in these areas where we see emerging values. And 
aside from the obvious benefits here, there is a longer term 
benefit I think in promoting democracy in Cuba.
    And a transition would be peaceful enough so we could 
realistically talk about democracy coming to Cuba when the 
changes come as they inevitably will. So you play a very 
important role in that. And my hope would be in a matter of 
weeks or months, it would be terribly frustrating I would say 
that to have a newborn child or to have a parent who was 
suffering terribly and knowing that 90 miles off my shore lies 
maybe some of the answers that could make a difference here.
    But because we are so bogged down in four decades of 
thinking that we deny ourselves the opportunity to improve the 
quality of life of people here.
    That is not an endorsement of Fidel Castro. It is a simple 
statement that we have got to get smarter in the 21st century 
than I know we have been. So your testimony is tremendously 
helpful.
    You are not politicians. You do not run for office. You are 
not here to set foreign policy. You are merely telling us with 
that within a few miles of our own shore there is some work 
being done that could save lives here at home.
    And if we have not figured out how to be clever enough to 
take advantage of that without endorsing the government down 
there, then we had better figure out a way to do it sooner than 
later. So I thank you for coming here today.
    Last, I want to invite our very patient panel. Nancy Chang 
is the senior litigation attorney for the Center for 
Constitutional Rights, and Mr. Ramon Humberto Colas, former co-
founder of the Independent Libraries Movement of Cuba.
    I want to thank both of you for being here today to share 
your views. I apologize for the wait that you have had, but I 
hope you have found it enlightening to listen to some other 
people share some thoughts.
    I am going to put you on the clock here to limit your time 
to some degree. So we will begin with you, Ms. Chang, and with 
your testimony. And then again any and all statements you have 
we will make a part of the record.

 STATEMENT OF NANCY CHANG, SENIOR LITIGATION ATTORNEY, CENTER 
          FOR CONSTITUTIONAL RIGHTS, NEW YORK CITY, NY

    Ms. Chang. Thank you, Senator Dodd. Travel to Cuba without 
a license, either to engage in non-tourist activities for which 
a license is required by the Office of Foreign Assets Control 
[OFAC] of the Department of the Treasury, or to engage in 
tourist activities for which no license is ever available, 
constitutes a violation of the Cuban Assets Control Regulations 
and the Trading with the Enemy Act of 1917.
    These violations expose travelers to a criminal conviction 
punishable by a fine of $100,000 and a term of up to 10 years, 
and to a civil penalty enforced by OFAC of up to $55,000.
    The severity of the restrictions on travel to Cuba, coupled 
with the draconian civil and criminal penalties that may be 
imposed, interferes with the exercise of two fundamental 
constitutional rights: First, our freedom to travel, which is 
an essential part of the liberty of which a citizen cannot be 
deprived without due process of law under the fifth amendment.
    Second, the restrictions limit our rights under the first 
amendment to express our views, hear the speech of others, 
gather information, associate with others, and make up our own 
minds--rights that are absolutely essential to a democratic 
society.
    During the cold war, the Supreme Court twice upheld 
government restrictions on travel to Cuba, finding them 
justified by national security reasons. But the geopolitical 
landscape has changed significantly since the Supreme Court 
decided these cases in 1965 and in 1984.
    The collapse of the Soviet bloc more than a decade ago 
marked the end of the cold war and the halt of Soviet subsidies 
to Cuba. The tiny island nation of Cuba does not pose the 
realistic threat to national security that would justify these 
curtailments of our constitutional rights.
    My office, the Center for Constitutional Rights, in 1998 
established a Cuba Travel Project in order to educate the 
public about these restrictions. We have published a book, 
``Advice for Travelers to Cuba,'' that has been in wide 
circulation and provides a user-friendly introduction to this 
arcane area of the law.
    We currently have more than 400 individual clients who have 
been targeted for OFAC enforcement actions. Our clients 
represent a cross-section of America at its very best. They 
work in a wide variety of professions, and include students, 
professors, public service employees, doctors, and lawyers. 
They range in age from their teens to their eighties. They are 
spread across 35 states and the District of Columbia.
    Senator Dodd. During what period of time, Ms. Chang, have 
these 400 people come to your office?
    Ms. Chang. Since 1998 which is in the last 4 years.
    Despite their many differences, they share in common the 
belief that the ties of friendship between people living in 
nations whose governments are at odds can promote peace between 
those nations.
    Ironically, it is those who honestly report their travel to 
Cuba to the Customs Service on their return to the United 
States who are most likely to become the subject of OFAC 
enforcement action, while those who seek to evade detection 
nearly always succeed in their mission. In other words, OFAC 
enforcement is typically directed at the least culpable 
travelers, those who do not understand the travel restrictions 
or believe themselves to be in compliance with them, and those 
who are truthful.
    Through our representation of these clients, the Center for 
Constitutional Rights has developed an understanding of why 
tens of thousands of Americans travel to Cuba each year without 
obtaining a license to do so from OFAC.
    Most are simply not aware of or do not understand the 
complex laws and regulations that govern such travel. The 
regulations simply cannot be reconciled with our democratic 
values. Travel to all other socialist states including the 
former Soviet Union, the People's Republic of China, Vietnam, 
and North Korea has long been permitted.
    And those who apply for a specific license to travel to 
Cuba in order to engage in one of the twelve limited activities 
for which such licenses may be granted consistently encounter 
roadblocks that prevent them from obtaining a license on a 
timely basis.
    From all outward appearances, OFAC is engaged in a 
deliberate strategy of discouraging the filing of license 
applications and of constructively denying these applications 
through inaction and delay.
    OFAC has never been required to account for its licensing 
decisions to the Congress much less the public. And the secrecy 
behind which it is permitted to operate allows for the 
introduction of bias, partiality inconsistency, and 
irrationality, which are anathema to our democratic process.
    Particularly troubling are new OFAC guidelines on specific 
license applications for people-to-people educational 
exchanges. Among other things, these guidelines impose a 
political litmus test by making a factor of consideration 
whether the predominant portion of the proposed activities will 
be with persons or entities that are not acting directly or 
indirectly for or on behalf of the Government of Cuba.
    In doing so, these guidelines contravene first amendment 
principles and, because the educational system in Cuba is state 
run, they would appear to impose limits on the ability of 
travelers to meet with and learn from Cuban university 
professors.
    The Center's clients also provide a firm basis for 
understanding the hardships that travelers to Cuba endure, 
first at the hands of the Customs officials that they meet at 
the airport, and later at the hands of OFAC.
    With disturbing frequency, our clients have reported that 
Customs agents were verbally abusive to them, screamed directly 
in their faces, accused them of being criminals, interrogated 
them in a belligerent and intimidating manner, dumped their 
belongings on the floor, detained them for hours on end, and 
coerced them into making statements about their trips by 
threatening to take away their passports or to keep them in 
detention or to not allow them to board a plane.
    Then upon their return from Cuba, travelers who are 
identified by Customs are turned over to OFAC. We have seen 
penalties imposed in pre-penalty notices of $7,500 for a single 
trip and as much as $27,500 for those who have gone on three 
unauthorized trips.
    As a practical matter, these restrictions will not be 
lifted until Congress enacts legislation such as the Bridges to 
the Cuban People Act.
    I have examined section 201 of this proposed legislation 
and I am very pleased to see that it explicitly repeals the 
existing statutory authorization for the restrictions which are 
the Helms-Burton Act and the Trade Sanctions Reform and Export 
Enhancement Act of 2000.
    Legislation that would simply cutoff funding to OFAC 
without at the same time legalizing travel to Cuba would not 
resolve the problems at hand.
    This year marks the 40th anniversary of the Cuban Missile 
Crisis. Congress should seize this moment to take a crucial 
first step toward mending the cold war-era fences that separate 
us from one of our nearest neighbors.
    Thank you again for inviting the Center for Constitutional 
Rights to address this matter. I ask that my full written 
statement be included in the record of this hearing.
    Senator Dodd. Thank you very much. And it will be.
    [The prepared statement of Ms. Chang follows:]

 Prepared Statement of Nancy Chang, Senior Litigation Attorney, Center 
                        for Contitutional Rights

    Senator Dodd and Members of the Subcommittee, thank you for 
providing the Center for Constitutional Rights with this opportunity to 
discuss the pressing need for legislation ending governmental 
restrictions on travel to Cuba. First, I will discuss how the current 
travel restrictions undermine our civil liberties without enhancing our 
national security. Second, I will discuss how the Department of the 
Treasury's enforcement of these restrictions selectively and unfairly 
targets individuals for penalties that they do not deserve. Third, I 
will discuss how enforcement efforts are being stepped up at a time 
when the Department's resources are needed to fight terrorism. Lastly, 
I will discuss why the restrictions will remain in place unless and 
until Congress enacts the Bridges to the Cuban People Act of 2001 or 
similar legislation to terminate them.
   i. the current restrictions on travel to cuba undermine our civil 
           liberties without enhancing our national security
    Travel to Cuba without a license--either to engage in non-tourist 
activities for which a license must be obtained from the Department of 
the Treasury's Office of Foreign Assets Control (OFAC),\1\ or to engage 
in tourist activities for which no license is available \2\--
constitutes a violation of the Cuban Assets Control Regulations \3\ and 
the Trading with the Enemy Act of 1917.\4\ Only travelers who are fully 
hosted while in Cuba and successfully avoid spending so much as a 
single penny of their own money on travel-related transactions, are 
exempt from these travel restrictions.\5\ Each violation of the 
restrictions exposes the traveler to a criminal conviction punishable 
by a fine of up to $100,000 and by imprisonment for a term of up to 10 
years.\6\ In addition, each violation exposes the traveler to a civil 
penalty, enforced by OFAC, of up to $55,000.\7\
---------------------------------------------------------------------------
    \1\ See 31 C.F.R. Sec. 5 15.560(a)(1)-(12) (authorizing travel to 
Cuba under tightly prescribed conditions).
    \2\ See Agricultural Rural Development, Food and Drug 
Administration, and Related Agencies Programs for Fiscal Year 2001, 
Sec. 910(b), amending the Trade Sanctions Reform and Export Enhancement 
Act at 22 U.S.C. Sec. 7209 (barring the licensing of travel to Cuba 
that does not fall within the categories of travel expressly authorized 
under 31 C.F.R. Sec. 515.560(a)(1)-(12) and designating them as tourist 
activities).
    \3\ 31 C.F.R. Part 515.
    \4\ 50 U.S.C. Appendix Sec. Sec. 1 et seq. The restrictions on 
travel to Cuba are also codified in the Cuban Democracy Act of 1982, 22 
U.S.C. Sec. Sec. 6001 et seq., the Cuban Liberty and Democratic 
Solidarity Act of 1996 (Helms-Burton Act), 22 U.S.C. Sec. Sec. 6021 et 
seq., and the Trade Sanctions Reform and Export Enhancement Act, 22 
U.S.C. Sec. 7209.
    \5\ See 31 C.F.R. Sec. 515.420.
    \6\ 31 C.F.R. Sec. 500.701(a)(1).
    \7\ 31 C.F.R. Sec. 500.701(a)(3).
---------------------------------------------------------------------------
    The severity of the restrictions on travel to Cuba, coupled with 
the draconian criminal and civil penalties that may be imposed upon 
their violation, interferes with, and effectively prevents, the 
exercise of two fundamental rights guaranteed by the United States 
Constitution.
    First, the restrictions limit our freedom to travel, which is ``a 
part of the `liberty' of which [a] citizen cannot be deprived without 
the due process of law under the Fifth Amendment.'' \8\ The Supreme 
Court has explained that:
---------------------------------------------------------------------------
    \8\ Kent v. Dulles, 357 U.S. 116, 125 (1958).

          This freedom of movement is the very essence of our free 
        society, setting us apart. Like the right of assembly and the 
        right of association, it often makes all other rights 
        meaningful--knowing, studying, arguing, exploring, conversing, 
        observing and even thinking. Once the right to travel is 
        curtailed, all other rights suffer, just as when curfew or home 
        detention is placed on a person.\9\
---------------------------------------------------------------------------
    \9\ Aptheker v. Secretary of State, 378 U.S. 500, 520 (1964) 
(Douglas, J., concurring).

    Second, the restrictions limit our rights under the First Amendment 
to express our views, hear the speech of others, gather information, 
and associate with others--rights that are essential in a democratic 
---------------------------------------------------------------------------
society. As Justice William Douglas astutely observed:

          The right to know, to converse with others, to consult with 
        them, to observe social, physical, political and other 
        phenomena abroad as well as at home gives meaning and substance 
        to freedom of expression and freedom of the press.

    Without those contacts First Amendment rights suffer.\10\
---------------------------------------------------------------------------
    \10\ Zemel v. Rusk, 381 U.S. 1, 24 (1965) (Douglas, J., 
dissenting).
---------------------------------------------------------------------------
    Government regulations that infringe upon fundamental rights will 
not be upheld unless they are necessary in order to achieve a 
compelling governmental objective and are narrowly tailored to 
accomplish that objective. In a suit filed just two months after the 
Cuban Missile Crisis of 1962, the Supreme Court was quick to uphold 
governmental restrictions on travel to Cuba, finding them justified by 
the ``weightiest considerations of national security.'' \11\ Two 
decades later, in 1984, a more restrained Supreme Court--by a narrow 
margin of five votes to four--again upheld such restrictions upon 
accepting at face value the Department of State's opinion that the 
political, economic, and military backing of Cuba by the Soviet Union 
and Cuba's military activities in the Western Hemisphere continued to 
sustain the restrictions.\12\
---------------------------------------------------------------------------
    \11\ Zemel v. Rusk, 381 U.S. at 16.
    \12\ Regan v. Wald, 468 U.S. 222, 243 (1984).
---------------------------------------------------------------------------
    The geopolitical landscape has changed significantly since the 
Supreme Court decided these two cases. The collapse of the Soviet bloc 
more than a decade ago marked the end of the Cold War and the halt of 
Soviet subsidies to Cuba. In the late 1990's, the Department of 
Defense, the Central Intelligence Agency, the Department of State, and 
the National Security Agency finally acknowledged what had been obvious 
for quite some time--that the tiny island nation of Cuba does not pose 
a realistic threat to the national security of the United States or the 
Western hemisphere.\13\
---------------------------------------------------------------------------
    \13\ See Defense Intelligence Agency, Central Intelligence Agency, 
and Department of State Bureau of Intelligence and Research, the 
National Security Agency, and the United States Southern Command Joint 
Intelligence Center, ``The Cuban Threat to U.S. National Security,'' 
November 18, 1997, available at http://www.defenselink.millpubs/ 
cubarpt.htm; Dana Priest, ``Cuba Poses `Negligible' Threat, Report 
Says,'' The Washington Post, May 7, 1998, at p.A8.
---------------------------------------------------------------------------
    And yet the Cuban Assets Control Regulations continue to infringe 
on the fundamental rights of Americans, even when our government can no 
longer establish that they are necessary in order to achieve a 
compelling governmental objective, much less that they are narrowly 
tailored to accomplish such an objective. These regulations illustrate 
a fatal flaw in the Trading with the Enemy Act. As four Justices of the 
Supreme Court pointed out, the Act has served as a ``one-way ratchet to 
enhance greatly the President's discretionary authority over foreign 
policy'' and to permit the President to cling to that authority long 
after the national emergency that served as the basis for its grant has 
ended.\14\
---------------------------------------------------------------------------
    \14\ Regan v. Wald, 468 U.S. at 245.
---------------------------------------------------------------------------
ii. the department of the treasury's enforcement of the restrictions on 
    travel to cuba selectively and unfairly targets individuals for 
                   penalties that they do not deserve
    In 1998, the Center for Constitutional Rights established a Cuba 
Travel Project in order to educate the public about the restrictions on 
travel to Cuba and to provide legal representation to individuals and 
organizations subject to OFAC enforcement actions under the Cuban 
Assets Control Regulations.\15\ During the four years that the Cuba 
Travel Project has been in operation, the Center has advised thousands 
of individuals and dozens of organizations from all across the United 
States on the laws and regulations governing travel to Cuba. A 
bilingual pamphlet published by the Center, Advice for Travelers to 
Cuba, provides a user-friendly introduction to this arcane area of the 
law and is in wide circulation.
---------------------------------------------------------------------------
    \15\ On June 17, 2002, Matthew Scott replaced Anna Liza Gavieres as 
the Coordinator of the Center for Constitutional Rights' Cuba Travel 
Project. The attorneys associated with the Cuba Travel Project 
currently include William Goodman, Michael Ratner, Shayana Kadidal, 
Michelle DePass, Robert Bloom, Anthony DiCaprio, Margie Rather, John 
Speyer, and myself.
---------------------------------------------------------------------------
    Currently, the Center represents more than 400 individuals who have 
been targeted for OFAC enforcement actions under the Cuban Assets 
Control Regulations. Each client has received from OFAC either a 
``Requirement to Furnish Information'' demanding a written response to 
a set of questions about his or her travel activities andlor a ``Pre-
Penalty Notice'' alleging that he or she traveled to Cuba in violation 
of the regulations. In the case of the more than 250 Center clients who 
have received a Pre-Penalty Notice, OFAC has demanded civil penalties 
that generally range from $7,500 to $27,500 per person.
    The Center's clients represent a cross-section of America at its 
very best. Included among their ranks are doctors, lawyers, educators 
from the elementary school level to the university level, students in 
high school, college and graduate school, journalists, writers, 
artists, dancers, film makers, urban planners, public health workers, 
social workers, law enforcement officers, civil servants, 
entrepreneurs, computer experts, and engineers. They range in age from 
their teens to their 80's, and they are spread across 35 states and the 
District of Columbia.
    While their reasons for traveling to Cuba are varied, none have 
engaged in activities that would--at least under any fair and rational 
system of justice--be considered grounds for imposing the criminal and 
civil penalties called for in the Cuban Assets Control Regulations and 
the Trading with the Enemy Act. Some clients traveled in order to 
deliver food, medicine, and other forms of humanitarian aid to the 
Cubans, and to donate their time and professional services in Cuban 
hospitals and schools. Some clients traveled in order to visit their 
Cuban relatives, friends, and co-religionists. Some clients traveled in 
order to scatter the ashes of their loved ones and to visit grave sites 
of family members. Some clients traveled to return to the missionary 
churches and military stations on the island where, decades ago, they 
had been stationed. Some clients traveled in order to study the Spanish 
language, to learn about Cuba's history, geography, and people, and to 
write books and articles on Cuba. Some clients traveled in order to 
attend professional meetings, sporting events, tournaments, and 
cultural events. Some clients traveled in order to study Cuba's 
internationally acclaimed programs in public health, sustainable 
agriculture, and energy conservation. Some clients traveled in order to 
study its political system and to meet with its proponents and 
opponents. And some clients traveled in order to experience the beauty 
of the Cuban beaches and countryside, sail, and to swim, fish, scuba 
dive, bicycle, birdwatch, and tour the sights.
    Despite their many differences, the Center's clients share in 
common a belief that ties of friendship between people living in 
countries whose governments are at odds can promote peace between their 
nations. They are also united in their desire to see for themselves 
what life is like in Cuba. They export an enthusiasm for all that is 
positive about life in United States and share with their fellow 
Americans the best of what Cuba has to offer.
    The Center's clients represent only an infinitesimal fraction of 
the tens of thousands of Americans who have traveled to Cuba in 
violation of the travel restrictions.\16\ However, the Center's clients 
represent a substantial percentage of the individuals against whom OFAC 
has brought enforcement actions.\17\ Thus, the overwhelming majority of 
travelers who violate the travel restrictions are not known to OFAC; in 
the alternative, they are known to OFAC but OFAC has chosen not to 
pursue them. Ironically, those who honestly report their travel to Cuba 
to the Customs Service on their return to the United States are the 
ones who are most likely to become the subject of an OFAC enforcement 
action, while those who are seeking to evade detection nearly always 
succeed in their mission. In other words, OFAC enforcement is directed 
at the least culpable travelers--those who do not understand the travel 
restrictions and believe themselves to be in compliance with them, and 
those who are truthful.
---------------------------------------------------------------------------
    \16\ The New York Times has estimated that 40,000 to 50,000 
Americans visited Cuba illegally in 2000. See Frank Bruni, ``Bush 
Administration Showing Willingness to Enforce Law on Visiting Cuba,'' 
The New York Times, August 5, 2001. However, the United States-Cuba 
Trade and Economic Council has estimated that 176,000 U.S. citizens 
visited Cuba in 2000, of whom approximately 22,000 traveled in 
violation of the travel restrictions. See Kevin Sullivan, ``Americans 
Defy Cuba Embargo,'' The Washington Post, October 13, 2001. The Council 
estimates that, of the remaining visitors, approximately 124,000 were 
Cuban Americans who are allowed one trip per year to visit close 
relatives in circumstances that demonstrate humanitarian need, and that 
approximately 30,000 made visits authorized by OFAC. Id.
    \17\ OFAC stated in September 2001 that it had a backlog of 357 
hearing requests. See infra Note 25. Presumably this number is much 
higher today.
---------------------------------------------------------------------------
    Through its representation of these clients, the Center has 
developed a clear understanding of why so many Americans travel to Cuba 
without first obtaining a license to do so from OFAC. First, most 
Americans are not aware of, or else do not understand, the complex laws 
and regulations that govern such travel and, as a result, incorrectly 
believe their travel to be legal. The Cuban Assets Control Regulations 
are obscure and replete with provisions that are lacking in clarity. 
Moreover, the regulations cannot be reconciled with our freedom to 
travel, which is ``a part of our heritage'' and ``basic in our scheme 
of values,'' \18\ and with our First Amendment rights to engage in the 
free exchange of ideas and to form our own opinions on matters of 
public concern. Indeed, travel to other socialist states, including the 
former Soviet Union, the People's Republic of China, Vietnam, and North 
Korea, has long been, and continues to be, permitted. Perhaps it is for 
these reasons that Americans are quick to believe advertisements 
falsely claiming that Americans may travel to Cuba lawfully as long as 
they pay for their trip in advance to a travel agency in a third 
country and spend no cash while in Cuba.
---------------------------------------------------------------------------
    \18\ Kent v. Dulles, 357 U.S. at 126.
---------------------------------------------------------------------------
    Second, Americans who are intent on visiting Cuba as tourists are 
left with no option but to violate the Cuban Assets Control Regulations 
and to expose themselves to the imposition of harsh criminal and civil 
penalties. OFAC is barred by statute from granting a license for travel 
in Cuba to engage in tourist activities.\19\
---------------------------------------------------------------------------
    \19\ See supra Note 1. A number of the Center's elderly clients 
have spoken with great emotion of their determination to visit Cuba 
while they still retain the physical ability to endure such a trip and 
the mental ability to appreciate the experience. Some of these clients 
have ties to the island nation dating back to its pre-revolutionary 
days.
---------------------------------------------------------------------------
    Third, some Americans have such a strong moral opposition to the 
embargo and that they travel to Cuba in deliberate violation of the 
travel restrictions as an act of civil disobedience. These individuals 
include the many hundreds of people who have joined caravans organized 
by Pastors for Peace that deliver humanitarian aide and medical 
supplies to Cuba.
    Fourth, Americans who apply for a specific license to travel to 
Cuba in order to engage in one of the limited activities for which 
licenses may be granted under the Cuban Assets Control Regulations have 
consistently encountered roadblocks that have prevented them from 
obtaining a license on a timely basis. From all outward appearances, 
OFAC is engaged in a deliberate strategy of discouraging the filing of 
license applications, and of constructively denying the applications 
that are filed through agency inaction and delay. OFAC is notorious for 
incessantly demanding detailed information concerning travel 
itineraries and the bona fides of the organizations sponsoring trips 
and their travelers, and for sitting on this information once it is 
provided. OFAC has never been required to account for its licensing 
decisions to Congress, much less to the public, and the secrecy behind 
which it is permitted to operate allows for the introduction of bias 
and partiality into the decision-making process, and for its 
inconsistent, irrational, and unfair treatment of license 
applications.\20\
---------------------------------------------------------------------------
    \20\ See e.g., ``OFAC Travel License Survey Responses, Summary 
Report,'' Fund for Reconciliation and Development (February 8, 2002) 
(submitted to the Subcommittee on Treasury and General Government of 
the Senate Appropriations Committee on February 11, 2002).
---------------------------------------------------------------------------
    Particularly troubling are new guidelines for specific license 
applications for people-to-people educational exchanges. These 
guidelines go so far as to request ``[a] full-time itinerary, broken 
down by half-day or smaller intervals, describing for each interval 
what the focus and nature of activities will be under the educational 
exchange program,'' and stating the ``ratio of Cuban nationals to U.S. 
participants in each event.'' \21\ To make matters worse, these 
guidelines impose a political litmus test by making a factor of 
consideration ``[w]hether the predominant portion of the proposed 
activities will be with persons or entities that are not acting, 
directly or indirectly, for or on behalf of the Government of Cuba or 
its parastatal industries or enterprises.'' \22\ In doing so, the 
guidelines contravene basic First Amendment principles. Also, as a 
practical matter, because the educational system in Cuba is state-run, 
they to impose limits the ability of travelers to meet with and learn 
from Cuban university professionals.
---------------------------------------------------------------------------
    \21\ Department of the Treasury Office of Foreign Assets Control 
``Guidelines for License Applications: Specific Licenses for Cuba 
Travel Transactions Related to Educational Exchanges Not Involving 
Academic Study Pursuant to a Degree Program.''
    \22\ Id.
---------------------------------------------------------------------------
    One victim of the new guidelines is Dr. John Gilderbloom, Executive 
Director of the Cuba Research and Education Programs and a professor of 
urban and public affairs at the University of Louisville.\23\ On June 
17, 2002, Dr. Gilderbloom was informed via telephone by two OFAC 
officials that his organization's application to renew its expired 
specific license for educational exchanges--exchanges in which American 
experts in architecture and planning could meet with and study from 
their Cuban counterparts--had been finally denied. Since 1997, trips 
run by the organization have been accredited by the prestigious 
American Institute of Architects and the American Planning Association 
for continuing professional education credits. The application had been 
filed 15 months ago, in March 2001, and Dr. Gilderbloom had worked and 
reworked it numerous times in an effort to meet the specifications of 
various OFAC officials. Even with the helpful intervention of Senator 
Mitch McConnell and Representative Ann Northup, the application was 
rejected by OFAC officials on numerous occasions prior to being finally 
denied on June 17th. Dr. Gilderbloom was informed on June 17th that his 
organization's application failed to meet the new guidelines because 
the proposed trips did not to call for sufficient contact with Cuban 
nationals not affiliated with the Cuban government, and because the 
inclusion of architectural tours and museum trips made the program 
``too much of a tourist program'' and allowed for ``too much self-
fulfillment.''
---------------------------------------------------------------------------
    \23\ This discussion is based on the author's telephone 
conversations with Prof. Gilderbloom on June 18, 2002.
---------------------------------------------------------------------------
    To complicate matters further, OFAC routinely fails to process 
applications in a timely manner, a practice that is unacceptable given 
the substantial commitments of time and money required of travelers in 
advance of an international trip. Those familiar with the application 
process have learned that they must conduct a steady and persistent 
campaign of follow-up telephone calls and faxes to OFAC in order to 
stand even a chance of obtaining a license in advance of a trip's 
scheduled departure date. Furthermore, those applicants who are 
fortunate enough to receive specific licenses are saddled with 
burdensome documentation requirements.
    Fourth, the few Americans who qualify for travel on a general 
license, or whose travel is fully hosted, are not required to apply for 
a license and, as a result, lack documentation from OFAC establishing 
that their travel to Cuba was lawful. On their return to the United 
States, these individuals are frequently subjected to harassment, 
detention, and confiscation of goods purchased in Cuba by untrained 
Customs officials who rigidly adhere to the false belief that travel to 
Cuba is illegal unless the traveler is able to produce a copy of a 
specific license from OFAC authorizing the travel. Some of these 
individuals have even been subjected by OFAC to enforcement actions.
    Furthermore, the Center's clients provide a firm basis for 
understanding the hardships that travelers to Cuba endure--first at the 
hands of Customs officials, and later at the hands of OFAC--when our 
government suspects them of violating the Cuban Assets Control 
Regulations.
    With disturbing frequency, the Center's clients have reported that 
Customs agents were verbally abusive to them upon their return from 
Cuba. Customs agents have screamed directly into their faces, accused 
them of being criminals, interrogated them in a belligerent and 
intimidating manner, dumped the contents of their suitcases and bags 
onto the floor, detained them for hours on end, and coerced them into 
making oral and written statements about their trips by threatening to 
take away their passports, keep them in detention, and not allow them 
to board a plane until such a statement was provided. Travelers' 
requests to speak to their attorneys have been ignored. These 
detentions have caused travelers to miss their connecting flights, 
sometimes forcing them to spend the night at the airport waiting for 
another flight.
    The Customs Service appears to have initiated a practice of 
stationing inspectors in Canadian airports to surveil Americans as they 
board and deplane flights between Cuba and Canada. A client of the 
Center was disturbed to receive a Requirement to Furnish Information 
last year that advised her that she had been observed by Customs 
inspectors when her Cubana Airlines flight arrived in Montreal. To its 
credit, the Canadian government has voiced concerns that the United 
States may be acting in violation of the 1974 Pre-Clearance Treaty 
between the United States and Canada.\24\
---------------------------------------------------------------------------
    \24\ Glen McGregor and Mike Trickey, ``Canada Opposes U.S. 
Crackdown on Cuba Visitors,'' Ottawa Citizen, September 1, 2001.
---------------------------------------------------------------------------
    The Customs Service also appears to be placing the names of a 
select group of persons who are suspected of traveling to Cuba in 
violation of the Cuban Assets Control Regulations on a watch list used 
by the agency to screen for travelers who are of concern to law 
enforcement agencies. Many of the Center's clients have complained that 
after having been stopped by Customs agents on their return from Cuba, 
they have been subjected to heightened inspection procedures at 
airports whenever they travel internationally.
    Upon their return from Cuba, travelers who have been identified by 
Customs as having traveled in violation of the regulations receive a 
Pre-Penalty Notice from OFAC assessing a civil penalty of approximately 
$7,500 when a single unauthorized trip is alleged, $17,500 when two 
unauthorized trips are alleged, and $27,500 when three unauthorized 
trips are alleged. Alarmingly, a family of four that travels to Cuba 
together can expect a civil penalty of $30,000. In addition, starting 
in November 2001, the Center has seen Pre-Penalty Notices that demand 
civil penalties from travelers--not for traveling in violation of the 
Cuban Assets Control Regulations--but for failing to respond to a 
Requirement to Furnish Information form demanding details about their 
trip. In November 2001, OFAC sent a Pre-Penalty Notice demanding a 
$1,500 fine for the late submission a Requirement to Furnish 
Information form. And in January 2002, OFAC sent at least two Pre-
Penalty Notices demanding $10,000 for the failure to submit a completed 
Requirement to Furnish Information form. In one case, the Pre-Penalty 
Notice did not even allege that the traveler had violated the Cuban 
Assets Control Regulations.
    The penalties demanded by OFAC are plainly excessive and 
unreasonable. The penalties are set without consideration of whether 
the traveler reasonably understood his or her travel to be lawful, how 
long the traveler stayed in Cuba, the nature of the traveler's 
activities while in Cuba, and whether the traveler's activities fell 
within the parameters of activities that are licensable. Moreover, OFAC 
sets penalties without consideration of the purported purpose of the 
travel restrictions--the amount of United States currency that the 
traveler has introduced into the Cuban economy.
iii. moreover, these enforcement efforts are being stepped up at a time 
     when the department's resources are needed to fight terrorism
    Between January 2001 and the present, the number of individuals who 
have received Requirement to Furnish Information forms and Pre-Penalty 
Notices from OFAC has skyrocketed. Not until July 2001, following 
widespread complaints of a Bush Administration crackdown on Americans 
traveling to Cuba, did a spokesperson for the Department of the 
Treasury finally acknowledge that ``a higher incidence of penalty cases 
are being issued at this time.'' \25\ This increase, however, was 
attributed by the spokesperson ``solely to the normal ebb and flow of 
OFAC's workload rather than a shift in policy.'' \26\ Soon thereafter, 
the Department reported that while OFAC had issued only 188 enforcement 
letters in all of 2000, it had issued 517 such letters between January 
and July of 2001. \27\
---------------------------------------------------------------------------
    \25\ Rafael Lorente, ``U.S. Tightens Cuban Embargo,'' The 
Washington Times, July 5, 2001.
    \26\ Ibid.
    \27\ See Sullivan, ``Americans Defy Cuba Embargo,'' supra note 16.
---------------------------------------------------------------------------
    The increase in OFAC enforcement activity caused the Center for 
Constitutional Rights' Cuba Travel Project to be flooded with new 
requests for legal representation. Between January and June of 2001, 
the Center accepted 162 new cases for representation--far more than the 
137 cases it accepted in all of 2000, the 55 cases that it accepted in 
1999, or the 49 cases that it accepted in 1998. When caseload of the 
Cuba Travel Project exceeded 400 at the end of June, 2001, the project 
was forced to turn away new cases for the first time since it opened 
its doors in 1998. In order to fill the void caused by its inability to 
accept new cases, the Center, in conjunction with the National Lawyers 
Guild, formed a ``Wall of Lawyers'' project. Lawyers from all across 
the nation have agreed to provide legal representation to individuals 
accused by OFAC of violating the Cuban Assets Control Regulations.
    For the first few months following the terrorist attacks of 
September 11, 2001, OFAC slowed down its enforcement of the 
restrictions on travel to Cuba. However, the agency has apparently 
decided to make up for lost time. In the first five months of 2002, 
OFAC issued 35 new Pre-Penalty Notices to existing clients of the 
Center. This is an unusually high number of Pre-Penalty Notices for the 
Center to receive given the fact that it closed intake in June 2001, 
and it is a strong indication that OFAC is once again stepping up its 
enforcement of the Cuban Assets Control Regulations. In addition, the 
Center was recently informed by OFAC officials that Administrative Law 
Judges will soon be conducting the hearings that have been requested by 
individuals who have been charged with violating the Cuban Assets 
Control Regulations. During the ten years that the Cuba Democracy Act 
of 1992 has provided such individuals with the statutory right to an 
Administrative Law Judge hearing, the Department of the Treasury has 
not had a single judge on staff.\28\ The backlog of requested hearings 
is likely to number in the hundreds.\29\ OFAC's stepped up enforcement 
of the Cuban Assets Control Regulations at a time when it has been 
charged with the responsibility of tracing and blocking the assets of 
the terrorists responsible for the attacks of September 11 is 
profoundly troubling.\30\
---------------------------------------------------------------------------
    \28\ Ken Guggenheim, ``Lengthy Backlog of Cuba Travel Cases,'' AP 
Online, December 16, 2001.
    \29\ Id.
    \30\ Executive Order 13224, ``Blocking Property and Prohibiting 
Transactions with Persons who Commit, Threaten to Commit, or Support 
Terrorism'' (September 24, 2001).
---------------------------------------------------------------------------
iv. the restrictions on travel to cuba will remain in place unless and 
 until congress enacts the bridges to the cuban people act of 2001 or 
                 similar legislation to terminate them
    Neither the executive branch nor the judiciary is likely to bring 
about an end to current restrictions on travel to Cuba. Now that Cold 
War tensions have been defused and Cuba no longer presents a credible 
military threat to the United States, it is possible that the courts 
will no longer be willing to accept at face value the government's 
assertion that the travel restrictions are justified on national 
security grounds. However, the judiciary has a long tradition of 
deferring to Congress and the Executive on matters of foreign policy, 
particularly where--as here--the two political branches are in 
alignment with one another. As recently as 1996, the Court of Appeals 
for the Ninth Circuit refused to look behind the government proffer in 
support of the travel restrictions.\31\
    And even if the executive branch were so inclined, it has been 
barred since October 28, 2000, from granting licenses for travel to 
Cuba for any activities other than the limited activities for which 
licenses are currently permitted under the Cuban Assets Control 
Regulations. In essence, the 2000 amendment to the Trade Sanctions 
Reform and Export Enhancement Act has codified the travel restrictions 
set forth in the Cuban Assets Control Regulations into law and has 
barred new categories of travel activities from being licensed.\32\
    Thus, as a practical matter, the restrictions on travel to Cuba 
will not be lifted unless and until Congress enacts the Bridges to the 
Cuban People Act or similar legislation to terminate them. Such 
legislation should explicitly repeal all existing statutory 
authorization for the restrictions, including the Helms-Burton Act, 22 
U.S.C. Sec. 6032(h), and the Trade Sanctions Reform and Export 
Enhancement Act of 2000, Sec. 910. The Bridges to the Cuban People Act 
repeals these two provisions.
    In addition, such legislation should provide for the dismissal of 
all pending OFAC enforcement proceedings under the Cuban Assets Control 
Regulations. Individuals subject to these proceedings have already 
endured the anxiety and the taint of having unresolved charges of 
wrong-doing filed against them without the ability to have their 
requests for an Administrative Law Judge hearing fulfilled. These 
charges have been pending for upwards of 10 years due to the Department 
of the Treasury's failure to comply with its obligations under the 
Cuban Democracy Act of 1992. The dismissal of these cases would also 
serve the public interest, as it would permit OFAC to shift its 
precious resources away from Cuba--which is not a danger to the United 
States--and direct its resources toward the prevention of a future 
terrorist attack.
    Legislation that simply cuts off funding to OFAC for enforcement of 
the travel restrictions without at the same time legalizing travel to 
Cuba will not resolve the lack of accountability that is inherent to 
any licensing permit scheme. Such a half-hearted measure could 
inadvertently make it impossible for people wishing to travel to Cuba 
to obtain specific licenses for such travel. And in the event that 
people chose to travel without a license, their travel could form the 
basis of a future OFAC enforcement action should funding to OFAC for 
enforcement be restored at some future date.
    This year marks the 40th anniversary of the Cuban Missile Crisis. 
Congress should seize the moment and take a critical first step towards 
mending the Cold War-era fences that separate us from one of our 
closest neighbors. The restrictions on travel to Cuba have long 
outlived their usefulness. Moreover, their senselessness, and the 
arbitrary and unfair manner in which they have been applied, only serve 
to breed contempt and disrespect for the laws of this nation. Their 
repeal by legislation is long overdue.
    Thank you once again for providing the Center for Constitutional 
Rights with this opportunity to address the Subcommittee on the need 
for legislation ending governmental restrictions on travel to Cuba.

--------------
    \31\ See Freedom to Travel Campaign v. Newcomb, 83 F.3d 1431 (9th 
Cir. 1996).
    \32\ See supra Note 1.

    Senator Dodd. Mr. Colas.

     STATEMENT OF RAMON HUMBERTO COLAS, CO-FOUNDER, CUBAN 
           INDEPENDENT LIBRARIES MOVEMENT, MIAMI, FL

    Mr. Colas. Gracias, Senor Presidente para la opportunidad--
--
    Senator Dodd. Yo no soy El Presidente, pero gracias para 
las palabras.
    [Whereupon a conversation occurred in Spanish.]
    Mr. Colas [by translator]. Thank you, Mr. Chairman. I 
appreciate this opportunity to appear before you and the 
committee to discuss U.S. policy toward Cuba.
    The United States embargo of Cuba is at the center of much 
political debate in various U.S. institutions. The effort to 
lift it appears to advance in equal measure to that which seeks 
to maintain it.
    Those who argue for a lifting of the embargo advance the 
following arguments: That it's not practical, that it has not 
changed anything in Cuba since its application, and that the 
Cuban people are suffering the worst consequences. Those 
against lifting of the embargo maintain that it is a policy 
tool used to pressure the Cuban regime and should be applied 
strongly.
    I count myself among those who believe that lifting the 
embargo would not benefit the Cuban people. To lift this 
measure would breathe new life into the Castro regime and would 
give it access to credit and finances that would only be used 
to further repress my compatriots on the island.
    No one can ensure that lifting the embargo would encourage 
a non-violent transition in Cuba. Fidel Castro is determined to 
remain in power at all costs and needs money in order to 
further his ends. To lift the embargo would only help to 
perpetuate Castro's system.
    The control that the Havana regime exercises over the Cuban 
people allows it to portray the United States as the root of 
all of Cuba's misery. This proposition is false. It's the great 
hypocrisy of a system whose failures are always someone else's 
fault.
    In this case, U.S. policy toward Cuba is used as a pretext. 
Castro seeks to depict those who favor maintaining economic 
sanctions against his regime as heartless and as virtual 
criminals.
    One of the accomplishments of the recent visit to Cuba by 
President Jimmy Carter was that the former President explained, 
in the presence of the Cuban dictator, that the embargo is not 
the reason for the lack of food and medicine on the island.
    Those who favor the embargo--those who favor lifting the 
embargo have not looked at the interior of Cuba. They do not 
realize that a dictatorship exists that imprisons those who 
oppose it. They ignore the fact that human rights are violated, 
that Cubans cannot participate in the economic life of their 
country, that only one political party exists, that there is no 
freedom of association, that travel within the national 
territory is restricted and that citizens must obtain the 
regime's permission to travel abroad.
    Intellectual freedom is violated. Books are banned. 
Education is subsumed by ideology. Worst of all, there is no 
liberty.
    To what extent is it moral to favor a regime that treats 
its citizens as non-persons and elevates foreign nationals 
above the native-born. United States citizens can travel to 
whatever part of the world they choose. But this nation should 
not taint the honor of its democracy by offering support to a 
regime that does not allow its people to be free.
    Why was the South African regime isolated when it 
maintained its policy of apartheid against the African 
population. But now there are those who believe we should not 
respond similarly in the case of Cuba when faced with 
comparable violations of human rights.
    In reality, there is only one true embargo and that is the 
embargo that Fidel Castro maintains against the Cuban people. 
His restrictions are the ones that should be lifted, against 
which actions should be taken.
    What matters to Cubans is not the U.S. embargo. What 
matters to my compatriots is their lack of freedom. Oswaldo 
Paya Sardinas, leader of the Varela Project, has said that the 
lack of freedom in Cuba is the main concern and that we should 
be asking Cubans about their rights rather about the policies 
of the foreign government.
    Policies that put pressure on the Cuban regime should not 
be discarded. They are effective because they allow dissidents 
to gain vital spaces and they encourage the nations of the 
world to look critically upon the situation in Cuba.
    The results achieved this year in Geneva, where Latin 
American nations were united in voting against Cuba, 
demonstrated that with pressure, the destiny of a people can be 
defined. Every day there are more people that believe that Cuba 
could advance toward democracy if willingness existed on 
Castro's part.
    A lifting of the embargo would allow Castro and his regime 
to ignore world opinion and give him the opportunity to regain 
his equillibrium. He would continue to endanger peace in the 
region, and above all else, he would not permit his people to 
be free.
    There exists a myth that lifting the embargo would 
facilitate people-to-people contact and that this would somehow 
create a new awareness among the people. No one can ensure this 
result in a country where the secret police monitors every 
tourist and where Cubans are sanctioned for making contact with 
foreigners.
    People-to-people contact can best be encouraged by 
providing aid to Cuba's emerging civil society and to the 
different opposition groups. Observe, for example, how Project 
Varela defied the authority of the regime and expressed the 
desire of thousands of Cubans to change the system.
    Can anyone guarantee that with a lifting of the embargo 
Cubans will have access to the Internet and to all types of 
information, that they will be allowed to participate freely in 
the economic life of their country, and that political spaces 
will be opened up.
    Can anyone guarantee that food and medicine will be put in 
people's hands, that the right to private property will be 
respected, and that my compatriots will be able to live their 
lives as they see fit.
    No one can guarantee this. In that case, let us simplify 
things. Let us look objectively at reality and let us try to 
change without exacting a new toll of sacrifice from the Cuban 
people.
    Please permit me to cite two examples. First, the Cuban 
Government spends several million dollars to buy 500 tons of 
frozen chicken from the United States. No one in Cuba has seen 
that chicken on his table, yet tourists are feasting on it in 
the hotels where my compatriots are forbidden from entering. 
This is what happened to every form of aid that has passed 
through Castro's hands.
    Permit me a second example. This involves the destruction 
left behind in Cuba last year by Hurricane Michelle. The United 
States offered to provide food, medicine and rebuilding 
materials for homes, and asked that experts be allowed to visit 
the island to assess the damage and estimate the amount of aid 
needed.
    The Havana regime refused to accept any such aid because it 
knew that these resources would not be placed under its 
control. In addition, it could not allow its enemy of 40 years 
to help the Cuban people because this would deprive it of the 
excuse that the United States is the cause of all of Cuba's 
misery.
    Mr. Chairman, what Cuba needs most is freedom and respect 
for fundamental rights. Once these essential hurdles are 
crossed, everything else will be up for discussion. I ask the 
members of the Senate Foreign Relations Committee to support a 
policy of political and economic pressure on the Havana regime 
that will only be modified when changes take place in Cuba that 
allow all Cubans to live in freedom.
    Senator Dodd. Thank you. I let you go a little longer there 
because the translation makes it a little more difficult. But I 
thank both of you for being here.
    Very quickly, Ms. Chang, what changes if any should be made 
to existing travel regulations and if enacted in law would 
section 201 of the bill remove impediments to U.S. persons' 
ability to travel to Cuba in your opinion.
    Ms. Chang. I think section 201 is very well thought out. It 
repeals the two statutes that lock in place the current 
restrictions on travel to Cuba. We now have 12 categories in 
which travel can be licensed. And that is because of Helms-
Burton. By removing and repealing those provisions, we allow 
free travel to Cuba.
    Senator Dodd. OK. Now I asked you earlier how long. You 
mentioned the 400 people. I mentioned it in my testimony, you 
mentioned that since 1998. Is there a distinction that you can 
identify between the previous administration and this 
administration and the implementation of these travel 
restrictions or has it been basically continuing?
    Ms. Chang. A very dramatic change has taken place. Early in 
2001 our office noticed that our intake was skyrocketing. We 
had so many calls for new assistance we had to close down our 
intake.
    And of course the Bush administration acknowledged that it 
has increased enforcement. Since September 11 serious questions 
have been raised as to why we are expending resources going 
after 75-year-old women who go on bike tours to Cuba innocently 
thinking that they are in compliance with American law.
    Senator Dodd. Well, if we are going to work at this, I 
think we may get some changes. And I appreciate your support.
    And Mr. Colas, I appreciate your testimony here and 
appreciate your point of view. Do you want to translate while I 
am talking? If I do it in Spanish, then I am going to lose my 
stenographer here.
    I found it most interesting, I had similar conversations 
with the human rights community and the dissident community 
within Cuba. I noticed that former President Carter had a 
similar response when dealing with the dissident community in 
Cuba.
    They bring a very different set of reactions to at least a 
partial lifting of the embargo. I do not think any of them 
endorse, maybe some do, a full lifting. But certainly it was 
the consensus in the dissident community that the continuation 
of the embargo has not worked.
    Now, these are the Cubans in Cuba. These are the dissidents 
that have not left but they are in the country who are 
recommending a different set of policies than what you are 
recommending, unless you have different information.
    But my information is there are different points of view on 
dissidents and human rights activists in Cuba versus the 
dissident community outside of Cuba, if you will.
    Mr. Colas. Mr. Chairman, I've been out of Cuba 22 weeks. I 
speak every week with folks in Cuba. Jimmy Carter met with 23 
opposition members in Cuba, 23 of whom I know and with whom I 
have strong bonds of friendship. But they are not the 
representatives of the entire opposition in Cuba which is much 
more than 23.
    In addition to those 23 people, there are some who do not 
share their point of view that the embargo should not be 
lifted.
    Senator Dodd. They didn't say that. I do not want to put 
words in their mouth. None of them I am aware of were of the 
view that the embargo ought to be completely lifted, maybe 
there were one or two. But according to President Carter when I 
talked to him----
    Mr. Colas. At least Argo Sanchez I believe is the one who 
said that the embargo should be entirely lifted.
    Senator Dodd. But the entirety of them believe that at 
least a part of the embargo ought to be lifted and travel 
restrictions ought to be lifted.
    Mr. Colas. I respect that opinion. I would have to say that 
there has been a broadening in recent years of the number of 
opposition members, including many who live outside of Havana. 
And unfortunately when foreign visitors come to Cuba, they tend 
to meet with the same group of people.
    And the points of view I, would say the points of view of 
people in the provinces that this broader opposition movement 
is rarely if ever considered by these foreign visitors.
    Senator Dodd. Let me ask you this, if I can, Mr. Colas. Is 
it your testimony here then today that those groups that 
President Carter met with do not represent the general views of 
the dissident community in Cuba, that it was a false impression 
he received by the dissident community; what they had to say 
was not representative of what the majority of Cuban dissidents 
feel?
    Mr. Colas. No. No. That is not my testimony.
    Senator Dodd. I am sorry. What did he say?
    Mr. Colas. No. That is not my testimony. But I maintain 
that the opposition in Cuba is more than that group of people.
    Senator Dodd. I know that. No one is arguing it is more 
than 23 people. But do they represent what the dissident 
community feel, the larger community. Is that an accurate 
representation or are you suggesting that it is a false 
representation?
    Mr. Colas. No. No. No. It was the representation of the 
points of view of the opposition groups that were present, but 
not of all opposition groups on the island.
    The 30th of November Party is one of the opposition groups 
that has one of the broadest bases of support. And yet it was 
not represented at the Carter meetings. The Cuban Reflection 
Movement is the broadest based movement in Central Cuba also 
was not represented at the Carter meetings.
    The Pedro Luis Boitel Movement also was not present at the 
Carter meetings.
    Senator Dodd. And your view is those groups have a very 
different point of view than the groups with whom President 
Carter met?
    Mr. Colas. Yes, it is. I would just like to also stress 
that Oswaldo Paya Sardinas expressed the point of view that 
what is important for Cubans is not the embargo but the lack of 
freedom for Cuba and that that is truly the first priority.
    Senator Dodd. Thank you very much. I thank all of our 
witnesses today for being here. We will leave the record open 
for members who would like to raise some additional questions.
    I find your testimony helpful obviously as we try and 
examine these policies and what may work. I would appreciate 
any further comment about the proposed legislation that we have 
introduced.
    We have 26 other co-sponsors in the Senate, a bipartisan 
group, and look forward to moving the legislation on to the 
floor of the Senate. With that, I thank all of you for being 
here. And this meeting will stand adjourned.
    [Whereupon, at 5:18 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

                              ----------                              


             Additional Statement Submitted for the Record


           Prepared Statement of Senator Russell D. Feingold

    I am pleased that the Foreign Relations Committee is considering 
the important issue of our relations with the people of Cuba. I have 
long expressed serious reservations over the dismal human rights record 
of the Castro regime, and I have few illusions about the intentions of 
the Cuban government. As a leading voice on human rights, the United 
States must not minimize the abuses of that regime, nor should we 
abandon our efforts to promote democratic reforms in Cuba. The recent 
visit of President Carter to Cuba, along with the surprising success of 
the Varela Project in promoting a more open consideration of democratic 
reforms in the country, may offer the first glimpse of a democratic 
future for the island. The United States must continue to promote this 
peaceful process of liberalization and change in Cuba.
    At the same time, we must also recognize that our embargo has 
failed to achieve its objectives, most notably by failing to promote a 
more meaningful improvement in the human rights landscape in the 
country. Instead, it has provided the government with a pliable excuse 
for its human rights failings, and for every other hardship in the 
economic, social and cultural life of the country. At this point, 
taking the best interests of the Cuban people into account, we must 
begin to ease the embargo, especially with respect to food, medicine 
and educational opportunities that would improve the health of the 
Cuban people.
    Let me be clear. I do not support a complete normalization of 
relations with Cuba. I believe that limited sanctions must be 
maintained to provide ongoing leverage and to help us achieve our 
broader human rights objectives. But the near total embargo that now 
exists has not been effective. Recognizing this lack of progress, I 
believe it is time to take groundbreaking steps to ease aspects of the 
embargo, but not the entire embargo, and that such a gesture could 
dramatically increase our leverage with both the people and the 
government of Cuba. Indeed, by demonstrating our good intentions and 
our willingness to consider new approaches and new relationships with 
Cuba, we would ultimately be in a better position to demand, and 
perhaps achieve, improvements on a range of human rights issues in 
exchange for ongoing progress in our economic relationship. This 
initial overture from the United States is needed to launch such a 
dialogue, and to diminish Castro's longstanding excuse for the 
country's hardships.
    I believe the liberalizing steps that are proposed in the Bridges 
to the Cuban People Act of 2001 strike a responsible balance in easing 
sanctions, while maintaining sufficient leverage to promote future 
human rights reforms. I was pleased to co-sponsor the bill last summer, 
and I am equally pleased that the Subcommittee on Western Hemisphere is 
taking a closer look at it today. The world has changed in many ways 
since the Cuban embargo was first adopted. It is time to take a 
compassionate look at its effectiveness, and to consider options for 
easing the embargo that would increase our leverage with the Cuban 
government and improve the health and well-being of the Cuban people.

                                   - 

</pre></body></html>
